<html>
<title> - WHAT IS HUD'S ROLE IN LITIGATION AGAINST GUN MANUFACTURERS?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





      WHAT IS HUD'S ROLE IN LITIGATION AGAINST GUN MANUFACTURERS?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 4, 1999

                               __________

                           Serial No. 106-128

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
65-463 CC                   WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                Mason Alinger, Professional Staff Member
                    Cherri Branson, Minority Counsel
                    Micheal Yeager, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 4, 1999...................................     1
Statement of:
    Bunch, Hezekiah, chief of police, city of Baltimore Housing 
      Authority; James Chambers, executive director, Sporting 
      Arms and Ammunition, Manufacturers' Institute, Inc.; Jeff 
      Reh, general counsel, Beretta Corp.; Donald Zilkah, 
      chairman of the board, Colt's Manufacturing; and Paul 
      Jannuzo, general counsel, Glock, Inc.......................    45
    Laster, Gail, general counsel, Department of Housing and 
      Urban Development, accompanied by Kevin Simpson, deputy 
      general counsel, Office of Deputy General Counsel for 
      Programs and Regulations; and Gloria Cousar, Deputy 
      Assistant Secretary, Office of Public and Assisted Housing 
      Delivery...................................................    10
Letters, statements, et cetera, submitted for the record by:
    Bunch, Hezekiah, chief of police, city of Baltimore Housing 
      Authority, prepared statement of...........................    77
    Chambers, James, executive director, Sporting Arms and 
      Ammunition, Manufacturers' Institute, Inc., prepared 
      statement of...............................................    54
    Jannuzo, Paul, general counsel, Glock, Inc, prepared 
      statement of...............................................    70
    Laster, Gail, general counsel, Department of Housing and 
      Urban Development, prepared statement of...................    13
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Reh, Jeff, general counsel, Beretta Corp., prepared statement 
      of.........................................................    61
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................    89
    Zilkah, Donald, chairman of the board, Colt's Manufacturing, 
      prepared statement of......................................    49

 
      WHAT IS HUD'S ROLE IN LITIGATION AGAINST GUN MANUFACTURERS?

                              ----------                              


                       WEDNESDAY, AUGUST 4, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2203, Rayburn House Office Building, John L. Mica 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Barr, Mink, Hutchinson, Tierney, 
and Schakowsky.
    Also present: Representatives Waxman and Cummings.
    Staff present: Sharon Pinkerton, staff director; Mason 
Alinger, professional staff member; Phil Schiliro, minority 
staff director; Cherri Branson and Michael Yeager, minority 
counsels; and Ellen Rayner, minority chief clerk.
    Mr. Mica. Good morning. I would like to call this meeting 
of the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order. Today's hearing is entitled, ``What is 
HUD's Role in Litigation Against Gun Manufacturers?''
    I would like to start in our regular order, which is to 
present an opening statement. Then, I will yield to other 
Members for opening statements. Today, we have two panels we 
will hear from. Today our subcommittee will address an issue 
that has been publically reported in the press recently, which 
involves the Department of Housing and Urban Development.
    HUD is one of the departments over which our subcommittee 
has oversight responsibility. This is the first HUD hearing 
that we have called this year. Our subcommittee plans to 
examine a number of HUD programs and topics relating to HUD 
that are very important to our Nation and that are of great 
interest to this subcommittee and its members.
    Unfortunately, until this past week, repeated requests for 
information records from that agency had been ignored. Although 
some of our HUD investigation hearings have been delayed as a 
result of that, it is my hope that our important oversight work 
can now proceed. I am pleased also that we have received a 
pledge from the Secretary to cooperate in our investigation and 
oversight efforts.
    Accordingly, I look forward in the near future to having 
additional hearings on HUD issues that impact our cities, our 
States, and our Nation. As members of the subcommittee and 
others know from previous hearings, I am very interested in 
what we, as a Nation, and what we, as a Federal Government in 
particular, are doing to help rid our communities of the 
scourge of drugs and crime.
    The role and actions of HUD in this regard are of special 
importance. I continue to hear that residents of our public 
housing are the hardest hit by violent crime and drug 
trafficking. These dual evils continue to destroy the quality 
of life for many of those who live in our urban communities, 
and especially the poor, the elderly, and the infirm who must 
rely on public housing.
    We can, and we must, take decisive steps to combat these 
evils and to protect families and their loved ones. Today, we 
will hear about a proposal that, according to some major news 
articles, has been considered or is under consideration by HUD. 
The proposal is for HUD to either join or assist in litigation 
against lawful manufacturers of firearms.
    These manufacturers are the same companies that produce 
weapons used by our law enforcement officials, and are used 
legally every day by citizens across the Nation, sometimes and 
often for their own protection. In getting to the root of the 
problem of crime and violence in our public housing, tracing 
the problem and looking at the idea for tracing the blame and 
liability back to gun manufacturers raises a number of 
questions.
    I am very interested in learning why the makers of firearms 
are seen by HUD as a possible cause of violence in our cities 
and housing areas. If this litigation is pursued, what would 
the cost be? Would this action help cure the problem of crime 
and violence in our housing projects?
    Quite frankly, I am baffled by the ideas that makers of 
guns are seen by anyone as being somehow legally responsible 
for those who acquire the weapons and misuse them. If we 
extended this question, are automobile manufacturers also 
legally responsible for those who misuse their cars? Are drug 
manufacturers liable for those who misuse legal drugs?
    Are computer manufacturers liable for those who use 
computers for illegal purposes? The list of potential 
defendants who become liable for producing legal products could 
be endless. With knife stabbings accounting for a substantial 
death count in our public housing projects, will HUD expand 
product liabilities to manufacturers of Swiss Army Knives and 
Oneida silver?
    Again, the imagination can run wild, if you pursue that 
logic. While I will listen very closely to the testimony, I 
cannot imagine while HUD, an agency of the Federal Government, 
would expend its time, its talents, and our tax dollars on 
considering such a strange approach to some very real and 
critical safety issues. I asked our staff, and we have not had 
time to complete a thorough report, but we have looked at some 
of the many reports that have been done just in the last 10 
years relating to the problems in public housing.
    We have not been able to identify a single report that 
identified gun manufacturers as the source of the problem, 
although there is a litany of additional sources and problems 
identified. The enforcement of our laws, and the protection of 
residents of public housing, deserves a reasoned and effective 
response.
    Prevention efforts are essential and require support and 
coordination at all levels, including National, State, and 
community levels. As we recently have learned, Federal 
officials are not doing nearly enough to enforce existing laws 
regarding the purchase of firearms to dangerous criminals, and 
those who are ineligible to purchase them.
    I think that targeting our attention and law enforcement 
resources to criminals who threaten residents in public housing 
communities could be much more effective than wasting time and 
money on misguided legislation. This administration and many of 
its leaders have championed, what I will call, a blame-and-sue 
philosophy at every turn.
    One week we should sue HMOs. The next week we blame mothers 
and grandmothers. Today, I am sure we will hear a variety of 
views on this issue. When all is said and done, we are 
obligated to do what is legally sound and most effective.
    Joining or encouraging litigation against the lawful 
manufacture of firearms has never been recommended by any of 
the countless studies that have been conducted by numerous 
public and private organizations to remedy the problems of 
crime and violence at public housing projects.
    I look forward to the testimony of our witnesses and hope 
that common sense and reasonable approaches, rather than ill-
conceived and knee-jerk responses ultimately prevail. Our 
citizens, and especially those who have been victims of a 
broken Welfare system, Federal policies that bread 
illegitimacy, destroyed the traditional family structure, 
dismantled our Nation's Anti-Drug Programs, and provided 
irresponsible actions as a new basis for our children to judge 
their leaders by, they need our help.
    They deserve real and effective solutions. Those solutions 
should not be sought through the misuse of our judicial 
process, especially by our Federal Government. So, those are my 
opening comments. I am pleased now to be joined by both our 
ranking member of the subcommittee, the distinguished lady from 
Hawaii, Mrs. Mink, and also our distinguished ranking member of 
the full committee, Mr. Waxman, in whatever order you prefer.
    [The prepared statement of Hon. John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED] T5463.001
    
    [GRAPHIC] [TIFF OMITTED] T5463.002
    
    Mrs. Mink. I will yield to Mr. Waxman and then take my 5 
minutes.
    Mr. Mica. Well, we will yield to both. Go ahead.
    Mr. Waxman, you are recognized.
    Mr. Waxman. Thank you very much.
    We are here today because the Wall Street Journal reported 
that HUD may be involved in a possible lawsuit by Public 
Housing Authorities against gun manufacturers. That article 
appeared last Wednesday. Immediately thereafter, this 
subcommittee demanded that HUD lawyers appear today to explain 
such an outrage.
    With equal speed, this subcommittee asked the 
representatives of several gun manufacturers to appear to 
explain why such HUD action is improper. I do not have a view 
on whether HUD or Public Housing Authorities would have a 
strong case against gun manufacturers on various legal 
theories. I am interested in hearing about those theories but, 
more importantly, some court will decide that issue.
    That is why we have lawyers and courts. They are better-
suited than this subcommittee to decide whether such claims 
have legal merit. I do have a view on whether HUD can get 
involved, as a plaintiff or otherwise, in litigation against 
gun manufacturers. It absolutely can. One of HUD's core 
missions is to help Public Housing Authorities across the 
country reduce housing problems.
    In HUD's enabling statute, Congress declared that the 
agency's purpose is, among other things, ``to encourage the 
solution of problems of housing, urban development, and mass 
transportation through State, County, Town, Village, or other 
local and private action.''
    Another statute, the Housing Act of 1937, similarly 
provides that ``Our Nation should promote the goal of providing 
decent and affordable housing for all citizens through the 
efforts and encouragement of Federal, State, and Local 
Governments, and by the independent and collective actions of 
private citizens, organizations, and the private sector.''
    I think it is undisputed, or at least it should be, that 
gun violence is a problem afflicting public housing and stands 
in the way of HUD's goal of providing decent housing for all of 
our citizens. From 1994 to 1997, there were more than 500 
murders each year at the 100 largest housing authorities. Many 
of those murders are attributable to gun violence.
    In New York City alone, 454 murders were committed in 
public housing from 1994 to 1997. In Washington, during that 
same period, there was one murder for every 61 homes over a 3-
year period. Those of us here in Washington, and I am sure 
elsewhere around the country, will recall the shooting of Helen 
Forest-El. She was a grandmother who, on June 21st, was shot to 
death as she tried to move neighborhood children to safety in a 
public housing complex.
    That is a problem. HUD should think creatively and act 
aggressively to address it. It seems peculiar to me that this 
committee, with all of the responsibility that we have, would 
jump on this issue so quickly and take this issue and elevate 
it into one where we are in effect, as you will notice from the 
chairman's statement, condemning HUD's actions before anything 
has happened.
    The chairman said the administration is all ready to blame 
and pass the responsibility onto others. Well, I would say it 
sounds like Republican leaders are willing to defend their 
friends, even though we find that some of their friends and 
contributors produce products that kill.
    That was the attitude of the Republican leadership in the 
House, when it came to tobacco and tobacco companies that make 
a product that, when used as intended, kills. No legislation 
was even brought up in the House of Representatives to deal 
with the tobacco companies. Not surprisingly enough, tobacco 
was the No. 1 contributor to the Republican House political 
efforts.
    Another friend of the Republican leadership seems to be gun 
manufacturers. This hearing seems to be not on how to deal with 
the problem of gun violence in public housing. It seems to be 
on how to make sure that nobody goes after the friends of the 
Republican leadership in the House, the gun manufacturers. Now, 
whether they can be held responsible under one legal theory or 
another is something that the courts will decide. Can HUD think 
about it? You bet they can think about it. Can they talk to 
others about it? They certainly have the freedom of speech 
rights to do that.
    If the administration wants to pursue a policy that the 
Republican leaders disagree with, well that is their right. I 
will hear what the policy has been at HUD. To be in a furry 
over the fact that they may be thinking about an idea that some 
people here do not like is certainly a strange notion.
    I welcome our witnesses today. I look forward to hearing 
their testimony. It seems to me any way we can have fewer guns 
around would mean fewer people dying from guns, even though the 
people who misuse these guns are the ones responsible. I think 
the manufacturers have to be held responsible as well, if there 
is a legal theory to do it.
    Mr. Mica. I thank the ranking member of the full committee 
for coming to the subcommittee hearing this morning and also 
expressing, very candidly, his viewpoint.
    Now, we will hear from Mr. Barr, who is the vice chairman 
of this subcommittee. Mr. Barr, you are recognized.
    Mr. Barr. Thank you, Mr. Chairman.
    Thank you for calling this hearing today. Far too often 
Congress allows problems to fester, and allows administration 
officials to do what they want, despite making bad policy 
decisions or possibly operating illegally, until it is too late 
to really do anything about it. So, I appreciate the Chair 
calling this hearing today to address a burgeoning problem 
before it gets out of hand.
    The fact of the matter is that this has nothing to do with 
free speech. If we were to take the ranking member's logic that 
any Government official could do whatever they want as long as 
they talk about it, because then it becomes a free speech 
issue. Before our HUD guests take too much solace in the 
comments of the ranking member, I want to assure you all that 
there are still Members of Congress who do care about the law.
    We do care about separation of powers. We do look for legal 
authority before any Government official or any Government 
agency can begin operating. The fact of the matter is that a 
Federal agency can engage in discussions that are 
inappropriate. They can look forward to involving themselves in 
matters which are not within the purview of the Federal 
Government. When that happens, that is indeed a matter that 
Congress ought to look into.
    It is within our jurisdiction. It obviously is within the 
jurisdiction of this committee. Despite how individual Members 
may feel about tobacco, and look for a tobacco- related 
solution to every problem in our society, that does not 
necessary make it legal. It does not make it proper. It does 
not make that solution fit within the bounds of our Federalist 
system of Government.
    There are Members, and sometimes it seems only Members on 
one side of the aisle, that care about such matters, but we do 
here. No matter how one may feel about the second amendment, 
one may dislike the second amendment. You all may dislike the 
second amendment. The fact of the matter is that it is there. 
Simply because there are guns in our society, as there are guns 
in every society on the face of the Earth, does not mean that 
every Federal agency can subsume, for itself, the jurisdiction 
to do something about it.
    There are appropriate ways to address the problems of 
violence in our society. There are appropriate ways to address 
the matter and the problem of misuse of guns in our society, 
and then there are ways that are not appropriate. Indeed, it is 
the mandate of HUD to involve itself in housing matters in our 
communities. That is a statutory matter that is long 
recognized.
    That does not mean HUD, or any other Federal agency, can 
simply go out and assist in filing lawsuits against the lawful 
manufacturers of products. It would be very interesting. I 
would be very interested to hear HUD witnesses explain why it 
is the manufacturers of firearms that are responsible for the 
violence in public housing communities or in any other 
community.
    We certainly want to work with HUD to solve these problems, 
but it has to be done in a rational way. It has to be done in a 
legal way. It has to be done in a way that is consistent with 
Constitutional principles of governing. It also has to be done 
in a way that is consistent with principles of jurisprudence.
    Those principles of jurisprudence and common sense tell a 
number of us here in the Congress, not the ranking member 
apparently, but a number of us here in Congress, that you do 
not hold the manufacturer of a lawful product liable for the 
misuse, the criminal misuse, of that product.
    To search for simplistic solutions, like going after the 
manufacturer of a firearm because there are problems of 
violence in our public housing communities, is just ridiculous. 
So, I will be very interested, Mr. Chairman, to hear the 
rationale for HUD involving itself in these matters. I will be 
very interested to hear our witnesses hopefully tell us that 
they are not involved in this, that HUD is not involved in 
this, that HUD has no intention of becoming involved in this.
    Therefore, if there is a restriction placed in HUD funding 
to prevent them from utilizing any funds for becoming involved 
in this, they would certainly have no problem with that because 
they are not involved in this matter.
    So, I appreciate, Mr. Chairman, your calling this hearing 
today. Hopefully, we can nip this problem in the bud and have 
the witnesses today tell us that the reports from the Wall 
Street Journal, and other newspapers, are indeed incorrect as 
media reports frequently are. Thank you, Mr. Chairman.
    Mr. Mica. I thank our vice chairman for his comments, 
candid comments, this morning. I am now pleased to recognize 
our ranking member of our subcommittee, Mrs. Mink, the gentle 
lady from Hawaii.
    Mrs. Mink. Thank you, Mr. Chairman.
    I am pleased to be here, but not so pleased we are here 
under these circumstances. I see no justification for calling a 
hearing based upon a newspaper article. I was only notified, I 
believe it was Thursday last week, that this hearing was 
contemplated. I had a very short time to inquire as to the 
basis of this hearing, and only yesterday was able to confer 
with HUD officials.
    I have come to the conclusion that there is ample 
justification for the Department to respond to their 
constituency. That is their mission. That is their statutory 
obligation, when it comes to their attention that certain 
elements of their constituency, which is the housing 
authorities and those who control housing activities in the 
cities and counties, are rising to this issue.
    It would be absolutely a dereliction of their 
responsibility if they were blind to the circumstances that 
they are faced with. I believe that getting involved in 
providing technical assistance, helping these cities and 
counties to determine whether there is justification and merit 
in their legal activities is perfectly within the realm of 
their Federal responsibilities. I am shocked to find that there 
could be any conclusion to the contrary. I am told that there 
are 23 legal actions against gun manufacturers across the 
country. This is not something which the Department generated. 
It is generated because the prime responsibility of the 
authorities in public housing is to make these housings safe 
and secure for their tenants.
    If the safety and security of their tenants is somehow 
fractured because of the presence of guns in that community, 
then it is their obligation, just as fire control and any of 
the other threats upon the safety of the tenants is their 
responsibility. It is their job to look into it.
    When they found that there were 23 other cities, 
communities, and authorities already engaged in litigation 
against the gun manufacturers, it was absolutely correct that 
they inquire and find out exactly what was going on, and what 
kind of technical assistance needed to be provided.
    So, I am somewhat chagrined that we are here meddling in 
the executive responsibility, which Congress has given the 
Department, to make sure that their constituents are safe and 
secure in the places that we have provided them. Frankly, if a 
gun manufacturer is advertising or allows advertising to go 
into the market that they have a fingerprint-proof gun, there 
is certainly something wrong with the manufacturer. For years 
they have known about providing safety locks so that children 
would not be injured by playing around with guns. There are 
certainly meritorious arguments for an inquiry as to what the 
gun manufacturers should be doing in order to make their so-
called second amendment commodity free and safe in this Nation. 
So, I commend the Department for the participation that was 
revealed in the Wall Street Journal article. I hope that this 
hearing today does not in any way intimidate them from pursuing 
this responsibility. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentle lady for her opening 
statement. I am pleased to recognize the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. I have no opening statement.
    Mr. Mica. Thank you. There being no further opening 
statements at this time, we will go right to our first panel. 
On our first panel, I would like to welcome Ms. Gail Laster. 
Ms. Laster is the General Counsel of the Department of Housing 
and Urban Development.
    Ms. Laster is accompanied by Mr. Kevin Simpson, Deputy 
General Counsel, Office of Deputy General Counsel for Programs 
and Regulations; and also Ms. Gloria Cousar, Deputy Assistant 
Secretary of the Office of Public and Assisted Housing Delivery 
of the Department.
    So, I would like to welcome our first panel. Just let me 
set the ground rules if I may. This is an investigations and 
oversight subcommittee of Congress. I will swear you in, then 
we will proceed and give each of you an opportunity for a 
statement. We will withhold all questions until afterwards.
    If you would please stand and be sworn. Raise your right 
hands please. Do, you solemnly swear or affirm that the 
testimony you are about to give before this subcommittee of 
Congress is the whole truth and nothing but the truth?
    [Witnesses sworn.]
    Mr. Mica. Thank you. The witnesses answered in the 
affirmative. Again, let me also say that if you have any 
lengthy statement, anything that exceeds our 5-minute oral 
limitation, we would be glad, by unanimous consent request, to 
submit that documentation or additional statement into the 
record in its entirety. So, just request that.
    With those comments, again, let me welcome Gail Laster, 
General Counsel of HUD. Welcome, and you are recognized.

   STATEMENT OF GAIL LASTER, GENERAL COUNSEL, DEPARTMENT OF 
 HOUSING AND URBAN DEVELOPMENT, ACCOMPANIED BY KEVIN SIMPSON, 
 DEPUTY GENERAL COUNSEL, OFFICE OF DEPUTY GENERAL COUNSEL FOR 
 PROGRAMS AND REGULATIONS; AND GLORIA COUSAR, DEPUTY ASSISTANT 
   SECRETARY, OFFICE OF PUBLIC AND ASSISTED HOUSING DELIVERY

    Ms. Laster. Thank you, Mr. Chairman.
    Good morning Ranking Member Mink, Congressman Barr, 
Congressman Waxman, and Congressman Tierney. I am pleased to 
have this opportunity to address you today about the problems 
created by gun violence in our Nation's public housing. As you 
are aware, in 1937, Congress mandated that the Federal 
Government provide decent and safe housing to the Nation's 
neediest citizens.
    That mandate has never been changed by Congress. It is a 
mandate that the Department takes very seriously. Moreover, 
each year Congress appropriates billions of dollars to fund 
over a million units of public housing, and expects that HUD 
will do everything in its power to ensure that those funds are 
spent effectively and in a way that fulfills its congressional 
mandate.
    Unfortunately, much has changed in the last 60 years since 
public housing was first created, including the cost and 
consequences of gun violence in America's poorest communities, 
especially in public housing. Today, I am saddened to report 
that the congressional mandate for safe public housing is being 
frustrated by an epidemic of gun violence. It is because of 
this crisis of gun violence in public housing that many housing 
authorities are considering litigation to minimize the cost of 
this problem.
    It will come as no surprise to this committee, or to any 
American who watches the local nightly news, that every year 
there are thousands of incidents of gun violence in and around 
public housing projects. Last year, for example, in just the 
hundred largest Public Housing Authorities, there were more 
than 500 murders, many involving guns.
    Innocent residents, especially children and the elderly, 
often live in constant fear of being caught in deadly cross-
fires between people who have far too ready access to firearms 
of all types. Their stories are deeply troubling. Five-year-old 
Taquan Mikell was hit by a stray bullet while walking home from 
dinner with his mother in Durham, NC.
    Grade school principal Patrick Daly was caught in crossfire 
and shot to death in Brooklyn, NY while looking for a missing 
pupil. Four-year-old Javina Holmes, a resident of Frederick 
Douglas Dwellings, was killed when her 8-year-old brother found 
a loaded shotgun inside their apartment and began shooting.
    Here in Washington, DC, Helen Foster-El, a 55-year-old 
grandmother, was gunned down by two stray bullets as she tried 
to usher neighborhood children to safety. Sadly, there are 
hundreds more. While the cost of gun violence in human lives is 
obviously the most disturbing, the costs to the Federal 
Government and taxpayers is also striking.
    A significant amount of the billions in public housing 
operational funds appropriated each year must be used by 
housing authorities to address serious security problems. In 
Chicago, for example, nearly 40 percent of its recent funding, 
$44 million, is spent annually on security costs attributed 
directly or indirectly to gun violence.
    Last year, HUD awarded over $200 million worth of drug 
elimination grants to local housing authorities to help them 
combat drugs and crime in their projects. In many cases, that 
money has helped to fund additional police officers, security 
cameras, and innovative enforcement measures related to gun 
violence.
    We are proud of our efforts to combat crime, but mindful 
that all of these funds could otherwise be spent not on 
preventing and dealing with the enormous cost of gun violence, 
but instead on providing badly needed housing and economic 
development for our poorest communities.
    At a time when a record 5.3 million American families are 
facing an affordable housing crisis, we; Congress, the 
executive branch, local governments, housing authorities, and 
citizens must be prepared to consider any reasonable avenue for 
controlling the human and economic cost of gun violence. Given 
these costs, it would not be right for the Nation's housing 
authorities to refuse to examine every option in their efforts 
to protect residents.
    Now, recently, certain practices of the gun industry have 
come under scrutiny for the possible role they play in 
exacerbating the problems of guns and gun violence. Over this 
past year, municipalities and counties, who know all too well 
the human and financial cost imposed by gun violence, gun 
deaths, and accidental injuries began filing lawsuits against 
the gun industry.
    Many people in the public housing community are interested 
in the possibility of filing similar suits. This search for 
solutions has lead to discussions, including a broad coalition 
of local housing authorities, their representative 
organizations, and legal experts about the viability of such an 
action. Discussions with housing authorities have indicated 
that there is a broad interest in taking some type of action to 
cut the cost of gun violence.
    HUD, however, and I repeat, HUD, does not plan to bring any 
action, on its own, against the gun industry. I want to make 
clear to this committee that there is nothing fundamentally 
unusual about these discussions. HUD has traditionally worked 
closely with housing authorities, including consultations with 
law firms representing housing authorities on a wide variety of 
issues. Our actions in exploring the possibility of these 
lawsuits is entirely consistent with our statutory mission. 
Congress has long recognized that HUD is not just about bricks 
and mortar, but about our communities.
    For HUD and housing authorities to turn their backs on any 
potential solution to the gun violence crisis in public housing 
would not only forgo our Constitutionally mandated obligation 
to provide decent and safe housing, but would be reneging on 
our responsibility as public servants to ensure that taxpayer 
funds are used in the most effective manner possible.
    I see the red light is on. I would like to finish.
    Mr. Mica. Go right ahead.
    Ms. Laster. But I do appreciate the opportunity to have 
Gloria Cousar here and Kevin Simpson to answer your questions. 
Thank you.
    [The prepared statement of Ms. Laster follows:]
    [GRAPHIC] [TIFF OMITTED] T5463.003
    
    [GRAPHIC] [TIFF OMITTED] T5463.004
    
    [GRAPHIC] [TIFF OMITTED] T5463.005
    
    [GRAPHIC] [TIFF OMITTED] T5463.006
    
    [GRAPHIC] [TIFF OMITTED] T5463.007
    
    [GRAPHIC] [TIFF OMITTED] T5463.008
    
    [GRAPHIC] [TIFF OMITTED] T5463.009
    
    [GRAPHIC] [TIFF OMITTED] T5463.010
    
    [GRAPHIC] [TIFF OMITTED] T5463.011
    
    [GRAPHIC] [TIFF OMITTED] T5463.012
    
    [GRAPHIC] [TIFF OMITTED] T5463.013
    
    Mr. Mica. Did either of the other individuals have an 
opening statement?
    Ms. Laster. No. They do not. No; just me.
    Mr. Mica. Did you have anything else you wanted to add?
    Ms. Laster. No, sir.
    Mr. Mica. Without the others having an opening statement.
    Ms. Laster. And I would just submit my full statement for 
the record.
    Mr. Mica. Without objection, your entire statement will be 
made a part of the record. Let me just ask, if I may, a few 
questions that will lead right off here. When this action or 
interest in this particular area of pursuit started, were there 
requests of HUD from housing authorities for HUD to get 
involved and possibly a suit for going after gun manufacturers?
    Ms. Laster. I do not know that I would characterize the 
request such as that, Mr. Chairman.
    Mr. Mica. Would you have any communication, correspondence, 
written correspondence, a request, or a formal request from any 
housing authority to pursue gun manufacturers?
    Ms. Laster. I have no knowledge, Mr. Chairman, about any 
formal or written request.
    Mr. Mica. Would it be possible for you to provide this 
subcommittee with a review of your files and see if there are 
any requests? We would like to have a copy of those requests 
from, again, any agency. Again, have there been any requests 
from any organizations outside to pursue this matter?
    Ms. Laster. I do not know, Congressman.
    Mr. Mica. Also, if you would provide this subcommittee with 
any communications. I am just trying to see how this began. 
What was the genesis.
    Ms. Laster. But If I could respond.
    Mr. Mica. Is it your Department or at the Secretary's 
request that this is considered?
    Ms. Laster. It was the Department's and, also as we have 
said, it was in response to inquiries. If I could respond to 
your initial question.
    Mr. Mica. OK, well maybe you could elaborate. I am trying 
to get some picture as to how this began. What was the genesis; 
if there is a cry from housing authorities for this and you 
have a record; if that was initiated by the Secretary or some 
outside organization?
    Ms. Laster. No, and I understand your question. What I had 
concerns about was the nature of your question in terms of 
written and formal. Indeed, there have been discussions and 
inquiries. As a general matter, and I believe Ms. Cousar can 
elaborate about this as well, we are in frequent contact with 
our Public Housing Authorities.
    We have frequently talked about the issue of crime and 
violence in the Public Housing Authorities and the issue of gun 
violence. We have different forums. We have seminars and we 
talk about that.
    Mr. Mica. Was there a specific housing authority that came 
forward with the idea to go after gun manufacturers?
    Ms. Laster. Not one that I could identify now.
    Mr. Mica. Did you have one, Ms. Cousar?
    Ms. Cousar. I do not have one, but I do have frequent 
concerns expressed about the issue of gun violence and crime 
related to the availability of guns by public housing residents 
and public housing staff, including executive directors.
    Mr. Mica. May I ask, if I can, Ms. Laster, have you 
discussed this pursuit with the Department of Justice?
    Ms. Laster. Well, it depends on what you mean ``this 
pursuit.'' I am not trying to be vague.
    Mr. Mica. The idea. I just wondered if the DOJ would be an 
agency you would expect that would go into this area? I 
wondered if this is something that is just within the 
Department or it is being discussed with, again, it would be my 
assumption that DOJ would look at something like this?
    Ms. Laster. As you know, Mr. Chairman, HUD has no authority 
on its own to bring litigation. The Department of Justice would 
have to make a decision to bring litigation. In the past, 
several months ago, we had general discussions with DOJ when 
the first cases came out in New Orleans and Chicago, what have 
you, about those cases.
    However, we have not discussed with DOJ what was, in fact, 
reported in the Wall Street Journal, which is PHAs, Public 
Housing Authorities, themselves, bringing these cases. I 
repeat, HUD has no plans to bring a case and DOJ, as I 
understand it, has no plans to bring a case.
    Mr. Mica. Have there been any memos or communication 
between HUD and DOJ on this matter?
    Ms. Laster. On the matter of the PHAs bringing lawsuits?
    Mr. Mica. Yes.
    Ms. Laster. No.
    Mr. Mica. In any way? Could you also check and see if you 
have any communication between the agency? What I am trying to 
do is see how the policy might be developed, or how folks 
generated this idea, and if there is an administration policy 
developing in this regard. Have any funds been spent so far in 
pursuit of possibly either assisting others with going after 
gun manufacturers, or the Department, or DOJ to your knowledge? 
Anyone expended any funds other than this?
    Ms. Laster. Again, I would most respectfully disagree with 
the characterization of ``going after gun manufacturers.'' What 
we have had are discussions, general discussions, to explain 
and to understand the lawsuits that are out there; to 
understand if the Public Housing Authority has a role to play 
in that.
    There has been no determination whatsoever that indeed 
there will be litigation or that a suit will be filed. We have, 
in fact, had conversations with Public Housing Authorities. We 
have, in fact, had conversations with law firms. As far as my 
knowledge, I am aware of travel funds being spent to meet with 
the law firms.
    Mr. Mica. The only final question, if I may, is do you know 
if we have any study or report, that you can point your fingers 
to that mentions or indicates that we should go after, as a 
solution to some of the problems of crime and violence in our 
public housing projects, litigation against gun manufacturers 
or hold them liable?
    As I have said, the hearing has been called rather quickly, 
as Mr. Waxman pointed out, but we could not find anything. Can 
you cite anything or provide us with any specific studies or 
reports?
    Mr. Simpson. I am not aware of any particular report that 
key in on Public Housing Authorities, the problems they 
confront with gun violence, and which resulted in a 
recommendation saying that a suit against the gun industry 
should be the answer. Our discussions have focused on the 
theories that are being advanced by the cities to the larger 
issue of gun violence. I am not sure if we do have a report.
    Mr. Mica. If you do have something, I wish you would 
provide it, or come across something, to this subcommittee.
    Now, we have about 5 or 6 minutes. We have time for one 
full round. Is that acceptable or would you like to come back?
    Mrs. Mink. Come back, come back.
    Mr. Mica. Whatever you would like to do; Mr. Waxman.
    Mr. Waxman. Well.
    Mrs. Mink. Come back.
    Mr. Mica. OK. We do have a vote. So, I wanted to try to be 
as clear as possible on time. So, what we will do is recess 
until about 5 minutes after this vote concludes. We are looking 
at about 20 or 25 minutes. You might get a chance to get coffee 
or a cold drink.
    Thank you. We will stand in recess.
    [Recess.]
    Mr. Mica. I would like to call this subcommittee back to 
order. I had concluded the first questions. I would like to 
yield now to the minority, Mrs. Mink, our ranking member.
    Mrs. Mink. Thank you, Mr. Chairman.
    The chairman of the subcommittee was pursuing his questions 
to find out how HUD was involved in advising these various 
housing agencies. It probably has some bearing on the activity. 
Although, I do not really see the relevance.
    Just as these hearings today were called because of a 
newspaper article, I am sure that the Department reads the 
newspapers and found out that in New Orleans there was a 
lawsuit already filed over which the Department had no 
involvement. Is that a correct statement?
    Ms. Laster. Yes, Ranking Member Mink. That would be 
correct.
    Mrs. Mink. Did you have any prior contact with what I 
understand to be the first lawsuit filed, which is in New 
Orleans? Is that a correct statement?
    Ms. Laster. I am sorry, contact with whom?
    Mrs. Mink. The people in New Orleans that filed the first 
lawsuit against gun manufacturers.
    Ms. Laster. To my knowledge, there was no contact between 
HUD and the people who filed the first lawsuit.
    Mrs. Mink. So, how did you find out about this lawsuit that 
the New Orleans Housing Authority filed?
    Ms. Laster. You are correct in your assertion that we read 
it in the newspaper.
    Mrs. Mink. Read it in the newspaper like everybody else.
    Then there were a series of other lawsuits, as I 
understand, that have occurred. Then following that activity, 
which was generated independent of HUD, you decided that it was 
your responsibility to look into these avenues of assistance, 
and that is how the genesis of HUD's involvement took place. Is 
that a correct synopsis of your situation?
    Ms. Laster. Yes, that would be correct. That is my 
understanding of what occurred here.
    Mrs. Mink. Was there ever a call by the Department to all 
of the housing agencies to come together in any sort of a forum 
or meeting to discuss this matter, specifically this matter, 
and no other matter?
    Ms. Laster. No, not to my knowledge.
    Mrs. Mink. So that if you did discuss this matter with 
other authorities, it was in conjunction with your other 
responsibilities. Is that a correct statement?
    Ms. Laster. Yes.
    Mrs. Mink. So, no specific effort with the sole, solitary 
purpose of discussing the propriety of a class action suit by 
housing authorities against gun manufacturers was ever tabled 
by your agency?
    Ms. Laster. I believe though, that most recently, there may 
have been calls and discussions with Public Housing Authorities 
in which the main topic of conversation was the potential for 
litigation.
    Mrs. Mink. Was this in a meeting called by HUD at some 
site?
    Ms. Laster. No.
    Mrs. Mink. You were talking about telephone calls?
    Ms. Laster. Telephone calls.
    Mrs. Mink. The telephone calls would have been made in 
response to an inquiry that someone else was making, or was it 
a telephone call that generated from your office because of an 
assumed responsibility?
    Ms. Laster. I think both cases would be correct, sometimes 
an inquiry and sometimes an inquiry initiated by the 
Department.
    Mrs. Mink. So, as general counsel for HUD, could you 
elaborate on the legal definition of the mission of the 
Department and how these discussions with other housing 
agencies fall within the mandate and mission of your 
Department?
    Ms. Laster. I would be happy to. Thank you.
    Many of them have already been addressed. Congressman 
Waxman, first of all, cited our enabling statute which is 42 
U.S.C. 3531 which states, as the Congressman indicated, that 
the purpose of HUD is to encourage the solution of problems of 
housing and urban development through State, counties, village, 
or other local and private action.
    I also believe there has been reference to the Housing Act 
of 1937, which has two relevant parts here. The first is that 
HUD is to assist States and political subdivisions of States to 
remedy the unsafe housing conditions and the acute shortage of 
decent and safe dwellings for low income families. Another 
relevant section is that our Nation should promote the goal of 
providing decent and affordable housing for all citizens 
through the efforts and encouragement of Federal, State, and 
local governments, and by the independent and collective 
actions of private citizens, organizations, and the private 
sector.
    One other thing that has not been cited here is, in fact, 
our governing statute for the Public Housing Authorities. Under 
this statute, HUD requires that Public Housing Authorities seek 
HUD approval before initiating litigation with HUD funds. That 
would be chapter 5, and section 3 of our litigation manual. So, 
those are basically the statutory provisions that we think 
enable us to, in fact, provide the technical assistance to the 
Public Housing Authorities and that enable us to answer their 
questions.
    We have a full range of, as you say, as you have pointed 
out, issues that are in the public eye, and to be able to, in 
fact, reach for possible actions to address the different 
issues regarding safety, as well as affordable housing.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. I would now like to recognize Mr. 
Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Ms. Laster, you said earlier in a response I think to a 
question by the chairman that HUD had expended travel funds.
    Ms. Laster. Yes, sir.
    Mr. Barr. For what purpose were those travel funds 
expended?
    Ms. Laster. I also think I said, in response to the 
chairman's question, that travel funds were to meet with a law 
firm.
    Mr. Barr. What law firm, where, and when did that meeting 
take place?
    Ms. Laster. I believe it took place last week. The law firm 
was Cravath, Swain, and Moore. It was in New York City.
    Mr. Barr. Who was that with, in particular, which lawyer or 
lawyers, or other personnel from the firm?
    Ms. Laster. I was not at the meeting, sir. So, I do not 
know. I believe Thomas Barr was there from the firm.
    Mr. Barr. Who was there from HUD?
    Ms. Laster. Douglas Kantor, Special Counsel in the Office 
of General Counsel and Max Stier who is the Deputy General 
Counsel.
    Mr. Barr. Are you familiar with the Anti-Deficiency Act, 31 
U.S.C. 1342?
    Ms. Laster. I am familiar with it, but I do not have it in 
front of me, sir.
    Mr. Barr. Do you see any problem with the Federal 
Government meeting with outside lawyers, not paid for by the 
Government, for which there is no line item authorization or 
appropriation authority?
    Ms. Laster. I do not see a problem in this instance, sir, 
because in fact we were not meeting to obtain legal services 
for the Department or any benefit to the Department. We were 
simply consulting.
    Mr. Barr. What was the purpose of the meeting?
    Ms. Laster. Simply to consult about various legal issues.
    Mr. Barr. Why is it necessary for HUD lawyers to consult 
with outside lawyers? I presume also that you believe that you 
do have the authority then to engage in the discussions that 
were the subject matter of the meeting.
    Ms. Laster. Yes, sir. We do that often, to discuss with 
outside lawyers, trade associations, a variety of private 
entities, some private and some public, about issues that 
effect the Department. We believe this is one such instance.
    Mr. Barr. Were minutes kept of that meeting?
    Ms. Laster. Not to my knowledge, but I could certainly 
check.
    Mr. Barr. I would appreciate that.
    One thing that we have learned up here, particularly in 
recent months, is to look at statements that the government 
makes very, very carefully. One of the statements in your 
written testimony, which you read is ``HUD does not, however, 
plan to bring its own action against the gun industry.'' Would 
you expand upon that? Does that mean that HUD will not bring 
any action against the gun industry or any component thereof?
    Ms. Laster. That is correct.
    Mr. Barr. Does that mean also that HUD does not intend to 
become involved as a party or as an amicus in any such lawsuit 
against the gun industry or any component thereof?
    Ms. Laster. As a party, that might be out of our control, 
sir. I guess to the extent that you are talking about a 
plaintiff.
    Mr. Barr. Well, let us talk about a plaintiff first.
    Ms. Laster. Sir, I would not be able to answer that as no. 
Also, in terms of an amicus, I would not be able to answer 
that.
    Mr. Barr. I am not sure I understand. Am I correct in 
stating that HUD does not intend to, and will not become a 
party-plaintiff in any lawsuit against the gun industry or any 
component thereof? Can you give us that assurance?
    Ms. Laster. Just a second.
    [Pause.]
    Mr. Laster. Again, I would say that we do not know of any 
existing plans. We have no intentions at this time. I do not 
know that I can find the same way, the Department, as I did 
with my other statements, but no. We have no intentions at this 
time to be a third party in any lawsuit that is filed.
    Mr. Barr. But that could change tomorrow. I mean, simply 
saying that you have no intention at this time means that at 
11:25 a.m., on August 4th, the Department has no intention, but 
that could change in the future is what you are telling us?
    Ms. Laster. Yes. I am also saying that, to my knowledge, we 
have no intention, in terms of the conversations we might have 
had with law firms, in terms of the conversations I have had 
with folks, that it is not our intention to be a third party in 
any lawsuit.
    Mr. Barr. I know you understand very, very clearly as all 
government lawyers do, the essential nature of our government; 
one of limited powers and specified powers. Therefore, any 
Federal agency, whether it is the Department of Justice, the 
FBI, or HUD, before it can engage in a lawful act, there has to 
be a statutory authority that provides a basis for that.
    What is the specific statutory authority, not general 
language about the policy of HUD to help with public housing, 
the specific statutory authority that would allow HUD to become 
involved in any way, shape, or form, other than being made a 
defendant, I know you have no control over that, in any lawsuit 
against the gun industry, the firearms industry, or a 
manufacture of a firearm for the purposes contemplated by the 
lawsuits that are the subject matter here today? What specific 
authority is there for HUD to do that?
    Ms. Laster. Well, other than what I have already cited, 
Congressman, I would have nothing else.
    Mr. Barr. All you have cited were just the general 
preferatory language which is not the same thing as specific 
statutory authority to engage in a lawsuit. So, you are unable 
to cite any specific authority?
    Ms. Laster. No; nothing other than the general enabling 
statutes that I cited, as well as the litigation handbook which 
would govern the litigation done by Public Housing Authorities 
and our role in that.
    Mr. Barr. That is not a statute.
    Ms. Laster. No, sir.
    Mr. Barr. Mr. Chairman, will we have time for a second 
round?
    Mr. Mica. Yes. We can go as long as patience, kidneys, and 
everything else.
    Mr. Barr. OK, thank you.
    Mr. Mica. I am pleased to recognize now the ranking member 
of the full committee, Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    So, just to clarify everything here, you are not planning 
to bring a lawsuit at the present time anyway?
    Ms. Laster. That is correct.
    Mr. Waxman. You have had from HUD, some officials have 
discussed with Public Housing Authorities that they might bring 
a lawsuit?
    Ms. Laster. Yes, sir.
    Mr. Waxman. Your view is that such activity is perfectly 
proper and within the scope of HUD's authority. Is that 
correct?
    Ms. Laster. Yes, sir.
    Mr. Waxman. You have testified that HUD has carefully 
tracked the 23 lawsuits that have been filed by cities and 
counties against gun manufacturers, as well as the suit filed 
by the NAACP. Is that correct?
    Ms. Laster. Yes.
    Mr. Waxman. HUD officials have discussed the possibility 
that Public Housing Authorities may bring similar lawsuits 
against gun manufacturers?
    Ms. Laster. That is correct.
    Mr. Waxman. Now, some of my colleagues may not be happy 
that HUD is looking at litigation as a way of addressing gun 
violence in public housing. Protecting the safety of people who 
live in public housing is a part of your core function. Is it 
not?
    Ms. Laster. Yes, sir.
    Mr. Waxman. I am looking at the statute that created HUD, 
the Department of Housing and Urban Development Act. In section 
2, Congress finds that one of HUD's purposes is ``to encourage 
the solution of problems of housing, urban development, and 
mass transportation through State, County, Town, Village, or 
other local, and private actions.'' Is it fair to say that gun 
violence in public housing is one of the problems contemplated 
by this statute?
    Ms. Laster. Yes.
    Mr. Waxman. In attempting to develop solutions to the 
problems of gun violence, it is perfectly appropriate for HUD 
to provide assistance or information in connection with 
possible gun litigation. Is that HUD's position?
    Ms. Laster. Yes, it is.
    Mr. Waxman. That is because such an effort is consistent 
with HUD's core mission to solve problems affecting public 
housing. Is that correct?
    Ms. Laster. Yes.
    Mr. Waxman. Now, given the focus of this hearing today, you 
would think that dozens of HUD officials have been spending 
time thinking about litigation against gun manufacturers and 
HUD has spent millions of dollars on the matter, but that is 
not the case; is it?
    Ms. Laster. Not to my knowledge.
    Mr. Waxman. Roughly speaking, how many HUD officials have 
worked on this matter in any substantive way?
    Ms. Laster. I would say, speaking for the Office of General 
Counsel, perhaps half a dozen senior attorneys; the Office of 
the PIH, maybe a handful; maybe a handful in different offices 
in the Department.
    Mr. Waxman. This is not all that these individuals have 
done?
    Ms. Laster. No, sir.
    Mr. Waxman. They have just taken some time to talk to 
people about this issue?
    Ms. Laster. Right. It has been over a period of several 
months. I believe the New Orleans case was back in the fall.
    Mr. Waxman. Can you quantify the dollars that have been 
spent on the HUD activities in this regard?
    Ms. Laster. Outside of staff time, it would just be the New 
York trip, which I elaborated for Congressman Barr.
    Mr. Waxman. So, it strikes me that probably this committee 
is spending more money on this issue than HUD might have spent?
    Ms. Laster. I will let you say that.
    Mr. Waxman. I do not know if we can quantify it. It could 
well be the case. In the past, what kind of coordinated effort 
has HUD made with housing authorities to address the problems 
of guns and violence in public housing projects?
    Ms. Cousar. Well, if I might contribute. Our office is 
involved principally through the programs that we administer, 
the Drug Elimination Program which supplies supplemental law 
enforcement, security assistance, and physical security 
strategies. We have come together in conferences on crime 
prevention, gang abatements, and youth violence.
    In all of these forums, we seek to provide technical 
assistance. We seek to provide an avenue in which these issues 
and these concerns can be discussed and bring experts together 
who are working at the local level and in the communities to 
address these problems.
    So, this happens during the course of the year. We also 
have a one-strike policy that we have been administering to try 
to effectively screen out of public housing potential violent 
offenders, criminals. So, there is a range of activities that 
we are undertaking in the course of the normal administration 
of public housing.
    Mr. Waxman. My understanding is the Public Housing 
Authorities spent, on an average, about 33 percent of their 
annual budgets on security-related expenses, such as guards, 
closed circuit cameras, and physical barriers. If these Public 
Housing Authorities could use these resources to rehabilitate 
existing units or create new units, how would the lives of 
public housing tenants be affected?
    Ms. Cousar. That is a very interesting point because it is 
the same point that is made to me by housing authority 
directors in any number of communities that are faced with high 
incidents of violent crime. I will give you the illustration of 
the District of Columbia, if I may.
    Mr. Waxman. Well, rather than to do that, it is clear there 
is a lot of money at stake. It is also clear my time is up. I 
am not going to be here for the second round. I just want to 
make this observation. HUD is being criticized for doing 
something that I think is within its core authority to do. 
There is certainly no expressed prohibition.
    It reminds of a time, around 10 years ago, where there was 
an expressed prohibition against the administration going out 
and giving support to the Contras in Nicaragua. We had a man by 
the name of Ollie North go out and ignore the expressed 
prohibition against his activities, where he tried to 
circumvent the law.
    We did not hear some of the woes and cries from some of the 
people when the expressed prohibition with Congress was being 
violated as we do now. It seems to me you are acting perfectly 
lawfully and properly in trying to deal with this problem. 
Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mrs. Mink. Mr. Chairman, I have a unanimous consent request 
to insert at this point the statement by our colleague, Dennis 
Kucinich.
    Mr. Mica. Without objection, it will be made a part of the 
record.
    Mrs. Mink. Mr. Chairman, I would like to take this 
opportunity to welcome our colleague, Janice Schakowsky as a 
new member of our subcommittee.
    Mr. Mica. Yes, I just noticed. She is most welcome. She is 
from Chicago.
    Ms. Schakowsky. Right.
    Mr. Mica. Well, welcome. Put your tray table in an upright 
position. Make sure your seatbelt is fastened and hang on. With 
that, I would like to recognize Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Chairman, I have to start just by saying I am shocked 
at how quickly the majority party responds on behalf of the gun 
industry at the slightest hint that somebody may be looking 
into ways to hold them responsible for some of the activities 
that we see.
    I think that it is shameful that Congress has not been able 
to take any action with respect to gun violence, particularly 
among young people, yet the minute there is a hint that some 
economic interest may be even questioned, within a matter of 
days, I think the Wall Street Journal article ran on July 28th.
    We had notices of a scheduled hearing on July 30th. Here it 
is on August 4th and we are all sitting around talking about 
why HUD is doing something that, I would suspect, they would be 
derelict in their duties if they were not doing.
    Let me just ask the witnesses, I think, an obvious 
question. Gun violence, I would assume, is a threat to the 
investment that we are making in our public housing?
    Ms. Laster. Yes. We would agree with that.
    Mr. Tierney. My records indicate that in the 100 largest 
housing authorities, there were more than 500 murders each year 
from 1994 to 1997. In fact, in 1995, there were 627 murders in 
the various housing authorities. Does that sound consistent 
with your records?
    Ms. Laster. Yes, and we mentioned it in our opening 
statement.
    Mr. Tierney. We have 3,400 public housing authorities that 
receive Federal funds?
    Ms. Laster. Yes.
    Mr. Tierney. I would assume that it is our responsibility, 
as well as HUD's, to see that that money is used wisely and not 
wasted?
    Ms. Laster. Certainly.
    Mr. Tierney. Now, I have Department of Housing and Urban 
Development records here that show that HUD is provided 
approximately $2.5 billion each year in public housing 
comprehensive grants.
    Ms. Laster. Yes.
    Mr. Tierney. Now, some of that money has to be diverted 
toward security measures?
    Ms. Laster. Yes.
    Mr. Tierney. Chicago, I understand, alone, spent 
$43,777,157 of its 1997 comprehensive grant, or 38 percent of 
that funding, on security.
    Ms. Laster. Right.
    Mr. Tierney. In 1998, HUD spent $243,736,400 on the Public 
Housing Drug Elimination Program, with about 46 percent of 
those funds going to security, law enforcement, investigators, 
and tenant patrols. Does that sound accurate?
    Ms. Laster. Yes, sir.
    Mr. Tierney. So, would you agree with me that somewhere in 
the broad authority of the Housing Department is some 
obligation to see that if there were a way to reasonably and 
legitimately decrease those expenditures so the money could be 
used elsewhere to better people's welfare and housing 
conditions, that would be your duty to investigate that?
    Ms. Laster. Yes.
    Mr. Tierney. In fact, I suspect that is exactly what HUD 
was doing as it started these conversations with the various 
housing authorities and legal people.
    Ms. Laster. Right. That was the purpose.
    Mr. Tierney. Now, the fact that Congress chooses not to 
act, the fact that the majority chooses to tuck this issue way 
back somewhere ought not, in my estimation, to impede the 
agencies for whom there is responsibility to act. I, for one, 
am glad to see that you are moving in that direction. Is there 
anything that you have seen, in the authorizing language for 
HUD, that would prohibit you from taking on the responsibility 
of making these inquiries?
    Ms. Laster. No. We have seen nothing that would prohibit us 
from entering in this course of conduct.
    Mr. Tierney. In fact, if you wanted to be totally 
responsible and pursue it, did you see anything that would 
prohibit you from actually spending money toward making those 
inquiries?
    Ms. Laster. No.
    Mr. Tierney. Have you had any resistance from any of the 
housing authorities asking that you not help them out by 
looking into ways to address this severe financial burden of 
violence and security?
    Ms. Laster. No. I do not know if I would characterize it as 
``resistance.'' The situation is that they are coming to us. We 
are having conversations. We have not made any formal 
proposals. We have not suggested anything. We have not done 
anything to resist, frankly. We have just had general 
discussions.
    Mr. Tierney. Now, do you have any idea of how many people 
in the housing authority properties are teenagers or children?
    Ms. Cousar. There are approximately two and a half to three 
children per household in public housing. We have about 1.3 
million households in public housing.
    Mr. Tierney. I would suspect the gun violence has 
proportionately, at least, affected these children?
    Ms. Cousar. Most certainly. We have, for example, in the 
District of Columbia, for the city as a whole in 1997, there 
were 463 murders; 225 of those murders were in public housing. 
Over 70 percent of them involved handguns. A significant 
portion of those were connected with youth gang violence.
    Mr. Tierney. So, it is just not surprising that Katherine 
Christoffer who is a children's advocate who writes for 
Children's Environments says, ``The firearm injury epidemic, 
due largely to handgun injuries, is 10 times larger than the 
polio epidemic of the first half of this century.''
    I find it surprising that Congress would in any way try to 
suggest that HUD ought not try to do something about this. The 
fact of the matter is that in 1996, 2,866 children were 
murdered with guns. I think that would, I hope that would, 
resonate.
    Let me stop my questioning because I think that the point 
is obvious that I am a little bit embarrassed with Congress, 
the majority, that they would have you here, as I think, brow-
beating you to back-off of a responsibility that I think you 
are rightfully moving forward on.
    There is a quote from one of the former senior vice 
presidents of Smith and Wesson, Robert Haas. He said, ``The 
Company and the industry as a whole are fully aware of the 
extent of the criminal misuse of handguns. The Company and the 
industry are also aware that the black market in handguns is 
not simply the result of stolen handguns, but is due to the 
seepage of handguns into the illicit market for multiple 
thousands of unsupervised Federal handgun licensees.''
    I think it is about time that we did something about it. I 
commend the Department for not sitting by and waiting for 
somebody else to act. I hope that you go forward with this and 
not be intimidated by today's proceedings. Thank you.
    Mr. Mica. I would now like to recognize Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. Thank you for the 
welcome. Thank you, Mrs. Mink, for welcoming me to this 
committee. My seatbelt is fastened. Perhaps I can contribute to 
the turbulence today as well. I come from a district that over 
July 4th weekend was devastated by gun violence. People 
peacefully coming home from a synagog were shot at.
    A man walking with his children, who happened to be 
African-American, was shot and killed by a hater. Someone said 
this not just about hate. This is what happens when hate has a 
gun. I come from a district that has a good deal of public 
housing, particularly senior citizen housing.
    I come from the city of Chicago where we, in 1997, spent 38 
percent of our comprehensive grant funding, almost $44 million, 
on security. I come from a city that has sued the gun 
manufacturers. Mayor Daley has been a leading force in that. We 
are pretty proud of that and hope that those suits are 
successful. So, quite frankly, when I saw the article when it 
appeared, my reaction was right-on. I am really glad that this 
is happening.
    I am a bit mystified why the tone of this would be to 
suggest that something improper is going on, particularly when 
I look actually at the language that provides that the 
Secretary shall provide technical assistance and information, 
including a clearing house service, to aid States, counties, 
towns, villages, or other local governments in developing 
solutions to community and metropolitan problems.
    In Chicago, and throughout my district, no question, this 
is a community-wide problem. What I would like to know, and 
maybe you covered this in your opening statement. I am sorry 
that I missed it. Were we not spending the 38 percent of this 
money that came to us on security, what kinds of things would 
those funds be available to do?
    Ms. Cousar. They would be available to rehabilitate and 
revitalize distressed public housing properties in the city of 
Chicago. To do renovations, to do repairs, to do maintenance, 
to turn around vacancies. That is the intention and the purpose 
of the Comprehensive Grant Program. To provide improvement in 
the management and operation of the public housing.
    Ms. Schakowsky. So, we have had trouble with elevators that 
do not work in public housing. So, that would be one of the 
ways that the funds could be used?
    Ms. Cousar. Most certainly.
    Mr. Simpson. If I could amplify on that response. HUD 
recently issued a study detailing the fact that there are still 
5.3 million Americans that are in need of affordable housing. 
So, we are not only talking about the needs for the existing 
public housing residents, but additional people out there who 
could benefit from federally subsidized housing.
    The needs are acute. If these demands were not being made 
on the present funds that we are expending for security, it 
would be available to expand the housing that we are offering.
    Ms. Schakowsky. Well, that comment certainly strikes home 
with me, given the VA-HUD appropriation that was just announced 
that severely cuts into some funds that would be available for 
public housing. It breaks all of our hearts in Chicago, but it 
is absolutely necessary, because we have had story-after-story 
of pretty dramatic shootings of children on their way to school 
from public housing that have been shot. In our view, nothing 
could be more important than exploring every kind of avenue. I 
really do not even have any questions to ask because for me, my 
district, and my town this is kind of a no-brainer. We 
certainly agree that we should be doing what we can to address 
this crisis, particularly as it affects residents of public 
housing.
    So, I really do not have anything else to ask. If there is 
anything that I and my Office can do to be helpful in making 
those buildings more secure in my district and beyond, I am 
certainly happy to do that.
    Mr. Mica. I thank the gentle lady.
    We will do a quick second round of additional questions. I 
have a couple, if I may. Thank you. I was interested in some of 
the statistics that have been cited, particularly since we 
brought up the District of Columbia. I think you said there 
were 463 murders?
    Ms. Cousar. For the city as a whole in 1997.
    Mr. Mica. How many in public housing?
    Ms. Cousar. It was 225.
    Mr. Mica. It was 225; almost half of them. I thought the 
district had some of the tightest gun control policies in the 
Nation. Is that not true?
    Ms. Laster. That is correct. I used to be a Public Defender 
here.
    Mr. Mica. Could you tell me about enforcement? Is there a 
tough enforcement policy at public housing? I mean, this is 
criminal to have that percentage of murders. It is 
unconscionable. Is there some prosecution? Certainly, if we 
have Federal responsibility, if we do not have it in the 
district, where do we have it? We have numerous Federal laws. 
Are we going after these folks?
    Ms. Laster. Again, if I could.
    Mr. Mica. It is illegal to possess a gun in the district.
    Ms. Laster. It is.
    Mr. Mica. Whether you are in public housing or somewhere 
else.
    Ms. Laster. Right. As you said, Mr. Chairman, that some of 
the strongest possession laws in the country are right here.
    Mr. Mica. Are right here.
    Ms. Laster. The issue, if I might.
    Mr. Mica. Do you have an active prosecution program to go 
after folks that have guns in housing projects?
    Ms. Laster. Well, sir, we would not prosecute. Again, that 
is a criminal matter.
    Mr. Mica. Do we have any kind of a program?
    Ms. Laster. Certainly, Public Housing Authorities have 
their own duties.
    Mr. Mica. That is a disgrace. That is a national disgrace. 
Then somebody told me that 70 percent are by handguns. What the 
hell are we doing with the other 30 percent? We do not care if 
you are stabbed, or strangled to death, or beaten through 
spouse abuse to when you have no life left in you? Do we have a 
program for that, that we are considering?
    Ms. Cousar. If I may.
    Mr. Mica. Go right ahead.
    Ms. Cousar. The District of Columbia Housing Authorities 
are working in concert with the Metropolitan Police Department 
in attempting to stem the tide of gun- related violence and 
crime involving drugs and domestic violence that has plagued 
the city.
    Mr. Mica. The Department has a program that we spent $1.3 
billion on drug elimination. If anything ties murder into death 
in the district or public housing, it is drugs. In my district 
that we held hearings of this subcommittee, 70 percent of the 
people in prison, or deaths, are drug-related, it has got to be 
that high or higher in our public housing projects. Do we have 
a program that is getting to the root of these problems, which 
is drugs?
    Ms. Cousar. Yes, sir.
    Mr. Mica. Are we spending in excess of $1.3 billion? Is 
that correct?
    Ms. Cousar. $1.3 billion does not come to the district.
    Mr. Mica. No, but nationally.
    Ms. Cousar. Nationally.
    Mr. Mica. How much comes to the district?
    Ms. Cousar. I can get that for you. I did not get the 
specific amount, but what I wanted to point out there are 
efforts to arrest persons who have illegal possession of 
firearms. That is what those charts show over there, everywhere 
you see a black icon.
    Mr. Mica. Why is it not working?
    Ms. Laster. Well, the availability. It is just simply the 
availability and proliferation of handguns.
    Mr. Mica. Well, how can it not work here and you take the 
largest metropolitan area of the United States, New York City, 
where Mr. Giuliani is mayor? When he came into office, they 
were right in the range of 2,000 murders, probably the same 
percent of them, 70 percent by guns, in a city with a 
population of maybe 10 million to 12 million. There were 600 
murders last year and there are 463 in the District of 
Columbia. Almost half of those are in public housing. What is 
wrong?
    Mr. Simpson. Congressman, if I could try to address your 
concerns. HUD does spend a great deal of money, energy, and 
programmatic resources in trying to address the problem.
    Mr. Mica. And it sounds like it is not very effectively 
expended.
    Mr. Simpson. But all of those efforts cannot eliminate the 
problem of gun violence. We cannot rest on only one approach.
    Mr. Mica. So, what should we do, pass more gun laws in the 
District of Columbia?
    Mr. Simpson. I think that is a decision for Congress to 
make.
    Mr. Mica. What about zero-tolerance? What about zero-
tolerance?
    Mr. Simpson. For drugs, guns, I am sorry?
    Mr. Mica. For violence, for crime, gun possession.
    Mr. Simpson. We certainly have.
    Mr. Mica. Talk prosecution.
    Mr. Simpson. We have allowed housing authorities to 
implement policies that embody a one-strike-and-you-are-out 
concept.
    Mr. Mica. I think this is a national disgrace. I think it 
is a scam to go after manufacturers in this fashion when we 
have spent billions of dollars in the district. I saw pictures 
of the district housing on television, which was bankrupt when 
we took over the majority in Congress. I would not have put my 
dog in public housing in the city. It was a disgrace. Rat-
infested and forcing people, who are poor, elderly, and infirm 
to live in those kinds of conditions.
    Then come up here and tell me that you are going to New 
York on a hunt and not paying attention to problems. The 
district has been cited time and time again. I did not want to 
get into this. Even their General Accounting Office has 
numerous long-standing deficiencies and calls your programs 
high-risk for operation. To me, it is a disgrace. I have no 
further questions. Mrs. Mink.
    Mrs. Mink. Mr. Chairman, I want you to know that your light 
was not on.
    Mr. Mica. I must confess, I told them not to put the light 
on.
    Mrs. Mink. I only make that comment because the moment I 
took my mic, the light went on.
    Mr. Mica. My personal light was on.
    Mrs. Mink. That was obvious. I think all of us are very 
deeply concerned about the crime rates in the District of 
Columbia. Frankly, I am very, very pleased that they are tough 
on gun possession and all of those things. I am very disturbed, 
nonetheless, that the murder rate in the district continues 
unabated it seems.
    Now, with respect to the gun violence in the housing units 
over which you have some knowledge, has there been any 
indication, since the enactment of the gun laws in the 
district, of any lowering of violence in the public housing 
units?
    Ms. Cousar. We have seen some decline in the level of 
murders and in the level of gun-related crime. What the 
officials at the housing authority tell me is that the security 
and the police feel like they are swimming up-stream because of 
just the mass availability of firearms and weapons. They make 
the arrests. The arrests have increased. You can see the 
arrests all over the community and throughout public housing. 
That is what our resources support.
    Mrs. Mink. How many arrests are there in the district that 
you are aware of involving public housing units for possession 
of guns?
    Ms. Cousar. In 1997, which are the most current figures 
that we have, 1,090 arrests alone for possession of firearms.
    Mrs. Mink. That was in 1997. Do you have any figures for 
1998?
    Ms. Cousar. The 1998 figures are not complete yet.
    Mrs. Mink. So, do you have any criticism against the police 
department, prosecutors, and so forth in their enforcement of 
the gun laws in the district? Have you had discussions with the 
district officials with respect to your concerns about violence 
in the public housing units in the district?
    Ms. Cousar. Within the district's public housing, I have 
had discussions with the staff who are at the front lines. They 
lament that we need to do more. We need to do more to stem the 
tide of the availability of guns that come across the borders 
of the district from places like Virginia and Maryland. They 
find their way into the communities and into the hands of 
people who really should not have guns.
    No one is licensed to carry a gun in the District of 
Columbia, yet the guns are getting in. They are getting in from 
outside of the district. Now, the police do what they can 
inside the district to arrest. Our jails are full. There are 
frequent arrests made. Again, that is not enough and our 
resources can only go so far.
    Mr. Simpson. If I could followup. Ms. Cousar raises an 
important point. This same theme has emerged in many of the 
suits brought by the cities and counties in identifying 
suburban outlying areas, gun dealers located in those areas, 
being responsible for an inordinately large number of gun 
traffic that could not possibly be satisfied by a legal demand 
in and around those areas.
    Tracing reveals that those guns disproportionately are 
ending up being used in the urban areas; despite the existence 
of local gun control laws, and being used in crimes. Over 50 
percent of the guns used in crimes are distributed by 1 percent 
of the distributors.
    Some of those distributors really can be charged with 
constructive knowledge of the extent to which their supplying 
of these distributors is contributing to criminal activities. 
Those kinds of theories are being explored by the local housing 
authorities. It is a significant problem. I think it deserves 
their attention.
    Mrs. Mink. So, even if the district has tough gun 
possession law, if the guns are permitted to come in from 
Maryland and Virginia, the district is a hapless victim of the 
inability of these other communities to do anything about their 
gun distribution problems. Is that the tenor of your statement?
    Mr. Simpson. That is absolutely correct. I think it is that 
phenomenon of the relative impotence of isolated localities. 
Chicago, itself, also has strict gun laws and similarly has 
filed a suit with this exact same theme. That is what the 
cities and counties are looking at, in terms of possible 
responsibility for at least some gun manufacturers and their 
distribution practices.
    Those practices could be changed without any significant 
incursion on second amendment rights or what have you to the 
significant benefit, in terms of administering the flow of guns 
to people who are likely to use them in criminal activities. 
That is, I think, all that is at issue with respect to many of 
the suits that have been brought.
    Mrs. Mink. Going back to the initial question which 
prompted these hearings, and that is the responsibility, or 
authority, or lack thereof of the Department of reviewing these 
matters having to do with gun violence in public housing units 
all across the country.
    It would seem to me that if I were a tenant in a public 
housing unit, and I realized there was this rampant threat upon 
my life and the life of my family members because of guns in 
the possession of persons around, near, or in the public 
housing unit, that I would hold the Department, HUD Department, 
or the housing agency responsible if anything happened to my 
family.
    That sense of holding the Department responsible would also 
give me the right to sue the Department as a defendant. So, if 
the Department understood the vehemence with which I am sure 
many of the tenants feel that their safety is being 
jeopardized, it would be derelict on the part of the Department 
not to do everything that it could to assure the safety of the 
tenants in these units, including collaborating, joining 
forces, giving advice and assistance to those cities, counties, 
and housing authorities that are moving forward on their own 
initiatives to do something about it.
    In the defense of the Department to assure that it cannot 
be charged with negligence or dereliction of duty with respect 
to the safety of their tenants. It would seem to me that it is 
incumbent upon the Department to collaborate, and join forces, 
and provide whatever assistance that they could.
    So, I think that the chairman's recognition of the severity 
of the problems that exist here in the district and our 
colleague in Chicago requires the Department. So, I think the 
inquiry underscores the promptness and legitimacy of the 
Department's action in this sense. So, I thank the chairman for 
his inquiry. Thank you.
    Mr. Mica. Thank you. Mr. Barr.
    Mr. Barr. Thank you. There have been some very intriguing 
legal theories discussed today. There have been some very 
passionate expositions of public policy. I would hope though, 
Ms. Laster, that you would recognize and agree with me that 
whatever policies HUD engages in, no matter what people might 
feel in their heart, or just feel is the right thing to do, or 
it makes us feel good, or despite whatever legal theory one 
concocts, as was just done to engage in lawsuits, has to be 
built on something more than sand.
    Does it not have to be based, that is any action that HUD 
might undertake as a Federal agency, have to be based on 
authority, legal authority to do so?
    Ms. Laster. Yes. But I would argue that it can be both 
general or specific.
    Mr. Barr. Well, apparently you think HUD can do anything 
literally. This is an astounding legal theory, although it is 
consistent, I grant you, with virtually everything we see from 
this administration. Apparently, some Members in Congress have 
this same view. That so long as there is no expressed 
prohibition on a Federal agency doing anything at all, it is 
legal. It is OK to do so. That is a preposterous legal theory. 
I am not amazed that the folks on the other side subscribe to 
it because it justifies involving the Government in everything 
they want to get it involved in.
    Mrs. Mink. Will the gentleman yield?
    Mr. Barr. No.
    Mrs. Mink. That is simply not my point of view.
    Mr. Barr. I did not attribute it to you. I attributed it to 
other strange legal theories. The problem here is that if you 
say that a Federal agency can do anything it wants, so long as 
there is no expressed prohibition, then you are saying a 
Federal agency can do anything it wants to do.
    That amazes me that you apparently, on the one hand, Ms. 
Laster, recognize and responded to my earlier question that 
yes, there has to be legal authority. Then you keep turning 
simply to the general language of a statute that says that the 
Department of Housing and Urban Development will engage in 
housing activities, and that includes providing a safe 
environment.
    Ms. Laster. Well, sir, it really has not been the 
Department's position that we can do anything.
    Mr. Barr. Well, that is obvious because there are a lot of 
things you have not been doing.
    Ms. Laster. Right. But I think we are talking about the 
safety issues.
    Mr. Barr. Well, let us talk about safety issues. You 
apparently because that simply because HUD is charged generally 
with providing a safe environment, that it can sue gun 
manufacturers?
    Ms. Laster. No. That was not our statement.
    Mr. Barr. Then what is the authority under which the 
Department would engage in discussions with outside lawyers 
involving lawsuits against manufacturers of firearms?
    Ms. Laster. Well, to be clear, it is not that HUD would sue 
gun manufacturers. We have been engaging in discussions about 
Public Housing Authorities.
    Mr. Barr. You have not ruled that out?
    Ms. Laster. I am sorry. I thought I did in answering all of 
your questions.
    Mr. Barr. No. You said, HUD has no intention, at this time, 
of becoming a plaintiff in any lawsuit against the gun industry 
or any component thereof.
    Ms. Laster. Well then, I did not speak clearly. I did mean 
to make clear that HUD, the HUD that I work for, this 
administration that I am working for, has no plans to sue the 
gun manufacturing industry. Now, what I could not give you 
assurances on are the issues of third party and also the issue 
of an amicus brief, which indeed is not necessarily suing, but 
it would be coming in on the side of somebody who has already 
sued. However, I do want to be clear that HUD, itself, has no 
plans to sue gun manufacturers. However, the theories we have 
been talking about, and if you would like to talk about that 
further, include Public Housing Authorities.
    Mr. Barr. No. I think Mr. Simpson has viewed them very 
well. He has made his position very clear with regard to the 
issue. Let us talk about safety though. There are problems of 
alcohol abuse in Federal-subsidized housing projects; are there 
not?
    Ms. Laster. Yes, sir.
    Mr. Barr. Have you engaged in any discussions with outside 
attorneys to bring lawsuits or possible lawsuits against the 
alcoholic beverages industry?
    Ms. Laster. Not to my knowledge.
    Mr. Barr. There are automobile accidents on housing 
projects. Is not that correct?
    Ms. Laster. That is correct.
    Mr. Barr. Why have you not engaged therefore, under the 
same legal theory that you think provides the justification for 
you to engage in outside discussions with lawyers involving 
possible suits against the gun industry, why have you not 
similarly engaged, pursuant to this very broad theory that you 
say you have authority to do anything that would protect people 
in public housing, why have you not similarly engaged in 
discussions with the automobile lawyers to sue automobile 
manufacturers?
    Ms. Laster. Because the facts of the circumstances are 
different. We believe that in the case of the gun 
manufacturers, there has been a credible argument about perhaps 
the negligence of certain gun manufacturers.
    Mr. Barr. That is very revealing. There lies your view on 
this. I think that what you are indicating is you have a policy 
view that it is legitimate to do this. Do you think it is 
legitimate to hold gun manufacturers responsible or the illegal 
use of their lawful product?
    Ms. Laster. The Department is looking at these lawsuits and 
examining the lawsuits.
    Mr. Barr. You cannot derive the legal authority from simply 
that the Department looks at it. The legal authority has to be 
there in the first place.
    Ms. Laster. Well, sir, no lawsuits have been instituted. 
So, to say the Department has this policy when there are no 
lawsuits that have been filed, is incorrect. HUD has no 
intention of filing a lawsuit, and we did not make a policy 
determination.
    Mr. Barr. But there still has to be legal justification, 
not just to bring a lawsuit, but to engage in certain 
activities. That is what I keep trying to get back to. There 
are press reports that the Department has already asked 
several, not just one, this silk stocking firm in New York, but 
several outside law firms to consider drafting legal action. 
That is the Wall Street Journal. Is that statement 
categorically incorrect?
    Ms. Laster. Yes.
    Mr. Barr. OK. So, it is a lie that the Department has had 
several outside law firms to consider drafting legal action?
    Ms. Laster. I would not use the term ``lie.'' That is not 
my term. I would say that we have not asked any law firm to 
``draft a complaint.'' We have certainly talked to law firms.
    Mr. Barr. That is not what it says. It says, ``consider 
drafting legal action.''
    Ms. Laster. Well, that term is imprecise. So, to the extent 
that, that term means drafting a complaint to initiate a 
lawsuit, we have not done that.
    Mr. Barr. There we get back to the parsing that the 
President so loves to do.
    Ms. Laster. OK.
    Mr. Tierney. Are you accusing the Wall Street Journal of 
parsing?
    Mr. Barr. The Wall Street Journal goes on to say that, 
``HUD Secretary Andrew Cuomo privately has expressed interest 
in finding a way to get involved in the anti-gun litigation.'' 
Has the Secretary been involved in any discussions, either on 
the phone or in person with any outside lawyers or groups to 
involve HUD in these lawsuits?
    Ms. Laster. Not to my knowledge.
    Mr. Barr. You discussed this very briefly earlier, that 
there had been this one trip to the firm in New York.
    Ms. Laster. Yes, sir.
    Mr. Barr. Have there been telephone discussions with 
outside law firms or lawyers?
    Ms. Laster. Yes, sir.
    Mr. Barr. Have there been any meetings at any HUD offices 
where the HUD people did not have to travel to the law firm, 
but the lawyers came to HUD?
    Ms. Laster. Yes, sir.
    Mr. Barr. Do you have a list of those? Can you provide us 
the details on those meetings?
    Ms. Laster. I can provide you that list, sir.
    Mr. Barr. When they took place, who they were with?
    Ms. Laster. Yes.
    Mr. Barr. And the substance of the discussions?
    Mr. Mica. If we could begin to conclude.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Mr. Tierney, did you have anything?
    Mr. Tierney. First of all, I want to say that I am just 
shocked, absolutely shocked, to find out that a newspaper might 
have gotten something wrong or not entirely accurate. It seems 
the newspapers generate hearings like this from time-to-time. I 
am still shocked that my earlier statements are that we end up 
having a hearing days after a story runs.
    It appears that we are doing discovery, to use the legal 
term, for the gun industry here to find out all that we can for 
them to benefit whatever defenses they may want to put up. I 
would suspect, Ms. Laster, that what the Department is doing is 
trying to determine whether or not there is a valid legal 
theory under which anyone might proceed.
    Ms. Laster. That is correct.
    Mr. Tierney. You are not going on proposing legal theories. 
You are questioning counsel to find out whether or not there is 
some theory.
    Ms. Laster. Right, and getting their opinion.
    Mr. Tierney. I understand the chairman's peak at all of the 
circumstances in the district, but the fact of the matter is 
the district has undertaken, on the local level, to ban 
possession of handguns; correct?
    Ms. Laster. That is correct.
    Mr. Tierney. Therein lies the problem. It is not lack of 
enforcement with 1,090 possession arrests in 1997. Certainly, I 
think you would be a little stretched to say that they are not 
doing anything. What the problem seems to be is exactly the 
theory you might inquire.
    Are the gun manufacturers at all responsible for the fact 
that they allow guns to go into an area where the local 
community has undertaken to ban possession, allow these people 
to come in from Virginia or wherever else, to get a gun and 
bring it back?
    That seems to be what we are talking about here, why there 
may be a need to look at this in a broader perspective. That 
may be one of the theories, as I read earlier. There are people 
that are former vice presidents of some of these gun 
manufacturers that say the companies and the industries are 
aware of the black market of handguns.
    They know that it is simply not the result of stolen 
handguns, but due to seepage of handguns into the illicit 
market for multiple thousands of unsupervised Federal handguns 
licensees. I would suspect that some people could make the 
claim that they are also aware that people leave D.C. or other 
cities where they have tried to ban handgun possession, travel 
elsewhere and get guns very easily, and bring them back into an 
area. That is, in fact, what these theories are talking about. 
I am somewhat chagrined that Congress would undertake to try 
and impede the third branch of this Government, the courts, 
from having some say in what is legal or not legal, if people 
want to proceed on some legal theories.
    We are three branches of government. When Congress fails to 
act, as we have so desperately failed around here to do 
anything on this issue, that we see that people want their 
rights protected. We would probably turn to the courts to see 
if there was not some remedy from time-to-time. Alcohol, I 
assume, is not banned. Possession of alcohol is not illegal in 
D.C. Is that correct?
    Ms. Laster. That is correct.
    Mr. Tierney. And probably why you are not running around 
seeing if lawyers came up with theories as to what you are 
going to do about that. I suspect automobiles have not been 
outlawed lately in D.C. Clearly, possession of guns has been 
illegal. Yet, there seems to be such easily accessible guns 
nearby, or just over the border, or whatever. That is the 
problem and that is why you are seeking some remedy.
    Those that would want to stop the use of handguns, or 
lawsuits against handguns for their misuse or whatever, what is 
their misuse, when you shoot and you miss? I mean, basically 
these are weapons that are designed to shoot and hit something. 
I think that we ought to act as a Congress here. The fact that 
we are here today trying to stop HUD from acting as a clearing 
house for local housing authorities that are facing this severe 
problem, to find some way if Congress will not get up and act, 
that maybe they would look to see if there was some remedy 
elsewhere. That seems, to me, fairly reasonable.
    I yield back the balance of my time.
    Mr. Mica. Thank you. Ms. Schakowsky.
    Ms. Schakowsky. Again, I am really confused by this 
hearing. Maybe it is because it is my first on this 
subcommittee. Talking about the problems in D.C., yet I recall 
a proposal from the Republican side of the aisle that would 
have actually reversed some of the gun safety laws in the 
district and made guns more available, as if that might be some 
kind of solution to something.
    I wanted to quote from the gun maker IntraTech who 
advertised one of its weapons as ``an assault-type pistol'' 
that ``has excellent resistence to fingerprints.'' In 
discussing the add, IntraTech sales director says, ``Hey, it is 
talked about. It is read about. The media write about it. That 
generates more sales for me. It might sound cold and cruel, but 
I am sales oriented.''
    When you have an industry that says that it has excellent 
resistence to fingerprints, I do not think they are talking 
about just making this weapon dirty in some way. They are 
talking about how to evade criminal prosecution and advertising 
that. I think that when we are looking for strategies, not just 
a single strategy, but strategies on how to make housing safer, 
that exploring all of them makes a lot of sense to me.
    Banning handguns is one way. We have talked about how hard 
it is when they are available elsewhere. Then another strategy 
may be to have security guards. Another strategy is to look at 
how can we stop the proliferation of weapons. This seems, to 
me, to be searching for a solution, looking for a problem or 
something. I do not understand what the problem is here again. 
So, I yield back the balance of my time.
    Mr. Mica. I thank the gentle lady.
    I would like to thank our first panel, Ms. Laster, Mr. 
Simpson, and Ms. Cousar, for their participation today. 
Obviously, we have some very serious problems in our public 
housing, both in violence and crime. Obviously, we have some 
disagreement about the solutions.
    We look forward to working with you, the Secretary, other 
officials at HUD, and members of this panel in helping to 
resolve some of those problems and make some meaningful 
changes. So, I will let you all be dismissed at this time. I 
will ask our second panel to come forward. Thank you.
    [Pause.]
    Mr. Mica. The second panel consists of the police chief of 
the city of Baltimore Housing Authority, Mr. Hezekiah Bunch. We 
also have Mr. James Chambers, executive director of the 
Sporting Arms and Ammunition Manufacturers' Institute. We lost 
one person in the second round, one witness in the second 
round.
    Mr. Jeff Reh, general counsel of the Beretta Corp.; Mr. 
Donald Zilkah, chairman of the board of Colt's Manufacturing; 
and Mr. Pal Jannuzo, general counsel of Glock, Inc. I would 
like to welcome our witnesses on this second panel.
    Again, we are an investigations and oversight subcommittee 
of Congress. Maybe you heard my directive that we do swear in 
our witnesses for the purpose of testimony. We do try to limit 
your opening statement to 5 minutes and then we will have a 
round of questions.
    If you could please stand and be sworn. Would you raise 
your right hand please? Do you solemnly swear or affirm that 
the testimony you are about to give before this subcommittee of 
Congress is the whole truth and nothing but the truth?
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. Again, 
if you have any lengthy statements, or additional information 
you may like to have made a part of the record, we would be 
glad to do that upon request. I am going to recognize first Mr. 
Donald Zilkah, who is chairman of the board of Colt 
Manufacturing. I understand he has to leave. We apologize for 
the delay. You are recognized.

    STATEMENTS OF HEZEKIAH BUNCH, CHIEF OF POLICE, CITY OF 
    BALTIMORE HOUSING AUTHORITY; JAMES CHAMBERS, EXECUTIVE 
    DIRECTOR, SPORTING ARMS AND AMMUNITION, MANUFACTURERS' 
  INSTITUTE, INC.; JEFF REH, GENERAL COUNSEL, BERETTA CORP.; 
DONALD ZILKAH, CHAIRMAN OF THE BOARD, COLT'S MANUFACTURING; AND 
           PAUL JANNUZO, GENERAL COUNSEL, GLOCK, INC.

    Mr. Zilkah. Thank you, Mr. Chairman.
    I apologize that I have to leave. Thank you, Mr. Chairman, 
and members of the subcommittee for inviting me here to speak. 
I want to begin by expressing my sympathies and regrets to 
those who have been victims or have suffered as a result of 
crime and, particularly, those perpetrated by the use of 
handguns. These are truly unfortunate situations that Colt 
deplores, along with the rest of the industry.
    With respect to today's testimony, I am grateful for the 
opportunity to discuss with you the devastating effect these 
lawsuits are having on legitimate business owners and, in 
particular, on my company, Colt. While I certainly appreciate 
the politics involved in the firearms debate, and the 
importance of protecting the second amendment, today I want to 
stress to you the business aspects of what these lawsuits will 
do to our country.
    This so-called municipal firearm litigation threatens a 
legitimate business, important to the national defense, and by 
targeting Colt, an industry leader in safety, it may well- 
undermine the very safety purposes the litigation purports to 
serve. At its core, the purpose of the backers of this 
legislation, is to make unlawful that which Congress has 
determined is lawful, the sale of firearms.
    As we all know, if used responsibly, firearms serve 
legitimate and important purposes, including the national 
defense, law enforcement, self-defense, and sporting and 
collector uses. Congress has weighed the benefits and risks of 
firearms, and has considered the issue of personal choice and 
responsibility, and properly has determined not to outlaw 
firearms, but to regulate their sale, possession, and use.
    In sharp contrast to the long and considered judgment of 
Congress, the backers of the municipal firearms litigation now 
attempt to turn to the courts to have them declare unlawful 
that which Congress has determined should be lawful, and to 
prevent law abiding citizens from obtaining our product. Their 
method is to put us out of business.
    Despite the lack of merit in these lawsuits, they may 
succeed even before any of us have the opportunity to obtain 
vindication in a courtroom. The legal fees that we are 
incurring and expect to incur will be astronomical. Conducting 
everyday business operations has become very difficult. We are 
faced with dilemmas that I do not believe the plaintiffs 
understand or appreciate.
    In particular, I am sure they have not considered the 
effect these suits may well have on our country's military, and 
the ability of a company to conduct the very safety research 
and development they claim we are not doing. Colt's 
Manufacturing is one of the oldest manufacturers in the world. 
We have been a company long known for our ingenuity and skill.
    In fact, one of the first key customers to our company was 
the U.S. Armed Forces. While our company was founded with the 
issuance of the U.S. patent in 1836 to Samuel Colt for the Colt 
Revolver, sales of the product did not take off immediately. As 
a result, Sam Colt tuned his attention to selling the U.S. 
Government in 1842 on his ideas for waterproof ammunition, 
underwater mines for harbor defense and, in association with 
the inventor Samuel F.B. Morris, the telegraph.
    When the Mexican War began in 1846, Captain Samuel H. 
Walker of the U.S. Army traveled east, looked up Sam Colt and 
collaborated on the design of a new more powerful revolver. 
Within a week, the U.S. Ordinance Department ordered 1,000 of 
the newly designed revolver, which Sam Colt called the Walker.
    He turned to Eli Whitney, Jr., the son of the famous 
inventor of the cotton gin, who had a factory in Connecticut, 
where the order was completed and shipped by mid-1847. By 1856, 
the company was producing 150 weapons a day, and the product's 
reputation for exceptional quality, workmanship, safety, and 
design had spread around the world.
    In fact, the Governor of the State of Connecticut awarded 
the honorary title of Colonel to Sam Colt. Our company's 
relationship with the U.S. Armed Forces remains today one of 
the focal points of our business. We are the sole supplier of 
the M-16 rifle and M-4 carb into the U.S. military, as well as 
many of our allies.
    In fact, we continue to work with the military to develop 
new products to protect our Armed Forces and bring them to the 
highest technology available. Despite the fierce competition 
and frequent awards to the lowest bidder, we have not and will 
not let the quality of our product waiver. Our products have 
always been of the highest quality, and will continue to be so.
    We believe, in fact, that we remain a major U.S. military 
supplier, because of our ability to provide the highest quality 
at a reasonable cost. One of the reasons we are able to do so, 
is because of the efficiencies we achieved as the result of our 
commercial business.
    In fact, the Army conducted a study in 1994, and has 
produced several documents thereafter, which recommend 
maintaining Colt as the sole supplier to the military because 
of our commercial business.
    In other words, it is less expensive for the U.S. 
Government to maintain a commercial business supplier than it 
is to maintain a supplier who supplies only the military. 
Maintaining a company for pure industrial-based reasons means 
that the Government has to keep a line warm. In most cases, 
this means 2,000 rifles a month.
    Colt is able to fluctuate its production from commercial to 
military. Thus, saving the government significant amounts of 
money. In short, the municipal firearms litigation puts the 
viability of Colt at risk and, by doing so, jeopardizes 
national defense.
    The effects of this assault will not only have a negative 
effect on our ability to keep our line warm for the military, 
but if it forces us out of business, it also will leave the 
military without an experienced base to turn to during a time 
of crisis.
    It would be more than 5 years, and significant government 
investment, to return any of today's weapons to their current 
level of operational ability. Another aspect of our business 
that is jeopardized by the municipal firearms litigation is the 
development of a personalized handgun.
    Since I purchased the company in 1994, Colt has placed 
great emphasis on the development of high-tech safety options, 
including the so-called smart gun. As many of you know, the 
numerous press accounts of our projects. We began working on 
this program several years ago. In 1988, we received a grant 
for $500,000 from the National Institute of Justice. Colt has 
also invested a significant amount of our own funds into this 
program. The $500,000 the government has awarded us is clearly 
not enough for an investment to move this program to a 
commercially viable product.
    In fact, the Army is currently developing a new firearm 
with electronics on board. Despite their significant delays and 
cost overruns, the project received over $30 million for 
research and development this year. Nevertheless, our company 
is committed to its development. Unfortunately, the very 
municipalities that are suing us because they believe we are 
not interested in safety, are the ones who may prevent us from 
completing this project.
    The heavy financial burden of the municipal firearms 
litigation clearly will continue to impede our progress and 
possibly jeopardize its very existence. Mr. Chairman, the issue 
of these lawsuits is one of paramount interest and concern to 
our company.
    When I purchased the company in 1994, I was always proud to 
say that I have been able to keep the history of Sam Colt 
alive. I fear, however, that this history may be coming to an 
end. Thank you.
    [The prepared statement of Mr. Zilkah follows:]
    [GRAPHIC] [TIFF OMITTED] T5463.014
    
    [GRAPHIC] [TIFF OMITTED] T5463.015
    
    [GRAPHIC] [TIFF OMITTED] T5463.016
    
    Mr. Mica. Thank you for your testimony.
    I would now like to recognize Mr. James Chambers, executive 
director of the Sporting Arms Ammunition Manufactures' 
Institute, Inc.
    Mr. Chambers. Mr. Chairman and members of the subcommittee, 
on behalf of the Sporting Arms and Ammunition Manufacturers' 
Institute, I want to begin by thanking you for inviting me here 
to present the firearm industry perspective on the issue of 
possible Federal lawsuits against gun manufacturers.
    I believe, as do many legal experts, and leaders in other 
industries, that a government lawsuit, such as the one being 
contemplated by Secretary Cuomo, sets a dangerous precedent 
that will serve to undermine and erode the power of Congress, 
while opening up all sectors of the U.S. economy to a 
debilitating free-for-all of class action lawsuits.
    First, let me briefly explain the background of my 
organization. SAAMI is an association of the Nation's leading 
manufacturers of sporting firearms, ammunition, and components. 
We were founded in 1926, at the urging of President Calvin 
Coolidge and Congress. SAAMI is the primary organization that 
represents the sporting arms and ammunition manufacturers 
before the United States.
    Our mandate is to work as a critical link between the 
firearms industry and the government to develop, test, and 
adopt technical standards for firearms and ammunition, while 
taking a leading role in the safe and responsible use of a 
firearm. I want to emphasize that our organization has spent 
millions of dollars on firearm safety. We are seeing a very 
disturbing trend in this country.
    Trial lawyers have created alliances with State, local, and 
now administration government officials, and are attempting to 
use lawsuits or the threat of lawsuits to dictate increased 
regulation of the gun industry not sanctioned by Congress. I 
think this is best summed up by a statement former Secretary of 
Labor, Robert Reich, recently wrote in USA Today. ``The era of 
big Government might be over, but the era of regulation through 
litigation has just begun.''
    Mr. Chairman, this scares me. At this moment, we have trial 
lawyers running around the country trying to convince State 
attorneys general, city mayors, and housing authorities to jump 
on the lawsuit bandwagon. Their sales pitch is an irresistible 
mix of free money and public attention. They say, let us 
represent you. We sue for millions. We divvy up any settlement, 
and you use your new money for roads and schools before the 
next election.
    Sir, by intoxicating government officials with visions of a 
cash pipeline pumping out millions of dollars for their use, 
without having to raise a single tax, the trial lawyers have 
convinced 24 cities to join in this legal feeding frenzy. Gun 
manufacturers, like the car, film, chemical, or thousands of 
other legitimate industries make up the U.S. economy and 
produce a legal product.
    Firearms are enjoyed by tens of millions of people who use 
them safely and responsibly. Blaming gun manufacturers for the 
illegal use of their product is ludicrous. Should we blame a 
car maker when a drunk driver kills a person? Is, for example, 
Kodak responsible for the illegal use of its film in the vile 
world of child pornography?
    Perhaps we should hold chemical manufacturers responsible 
for the production of illicit drugs. I think not, but trial 
lawyers do and law abiding companies could be facing an 
avalanche of lawsuits if common sense is not restored to our 
legal process. What we are seeing now is an attempt by the 
trial lawyers and anti-gun organizations to usurp the political 
process.
    After having been defeated time-after-time in their 
continuing efforts to impose more strict gun control measures 
within Congress, they have found that using the leverage of a 
lawsuit and the implied threat of draining a company of 
millions of dollars in legal fees can advance their agenda much 
faster and with greater success than through the political 
process where such issues should be decided.
    This is a form of legal extortion. Trial lawyers and anti-
gun groups are betting that they stand a better chance of 
convincing a 12-person jury, who are responsible to no one, of 
their version of the restrictions that gun manufacturers and 
owners should endure. Suddenly, we are finding ourselves 
confronted with the fact that 12-person juries can supplant the 
535 elected Members of our Congress.
    I believe this represents a clear violation of our 
collective civil rights. The courts, as the trial lawyers and 
some organizations have found, is a perfect mechanism to take 
the policy issue of guns in our society out of the political 
sphere and into a setting where they can force settlements on 
companies that can affect the entire country.
    The Wall Street Journal article reporting HUD's exploration 
of a lawsuit against the gun industry raises serious questions. 
First, what basis is there for filing a lawsuit against a legal 
product?
    Second, considerable damage can be done to the firearms 
industry if HUD decides to coerce or encourage some or all of 
its 3,400 housing authorities that receive Federal funds to 
file a similar case.
    Third, HUD is apparently using outside counsel involved in 
gun suits to find a nexus for HUD to file a claim.
    Mr. Mica. If you could begin to conclude, sir. We have a 
vote called and we are trying to limit this to 5 minutes. Thank 
you.
    Mr. Chambers. Well, what we can do to solve this is fall in 
with Senator Mitch McConnell who has introduced the Litigation 
Fairness Act 1269. I believe a companion bill will be 
introduced in the House later on. It is a simple bill that will 
force the government to adhere to the same rules that 
individual citizens adhere to. I have in my hand here a letter 
from the U.S. Chamber of Commerce that I would like to be 
entered into the record.
    Mr. Mica. Without objection; so ordered.
    Mr. Chambers. Thank you.
    [The prepared statement of Mr. Chambers and the information 
referred to follow:]
[GRAPHIC] [TIFF OMITTED] T5463.017

[GRAPHIC] [TIFF OMITTED] T5463.018

[GRAPHIC] [TIFF OMITTED] T5463.019

[GRAPHIC] [TIFF OMITTED] T5463.020

[GRAPHIC] [TIFF OMITTED] T5463.021

    Mr. Mica. Thank you for your testimony.
    We have time for one additional witness before we vote. 
There is a vote called. Mr. Jeff Reh, you are recognized, sir. 
You are general counsel of Beretta Corp.
    Mr. Reh. Thank you, Mr. Chairman.
    I had a longer version of this statement which is more 
thorough that I would like to have entered into the record.
    Mr. Mica. Without objection; so ordered. It will be made a 
part of the record.
    Mr. Reh. Mr. Chairman and members of the subcommittee, 
thank you for allowing Beretta U.S.A. to make a few comments to 
you today. Beretta U.S.A. is the manufacturer of the standard, 
service sidearm for the U.S. Armed Forces. We also supply 
sidearms to over 2,000 law enforcement organizations of the 
United States and Canada.
    We are also proud to provide high quality, safe, and 
reliable firearms to private citizens for self-defense and for 
sporting use. News reports indicate that HUD is considering 
joining 24 cities in filing lawsuits. I guess that we will find 
out in the near future whether in fact they are actually going 
to assist in that effort.
    To the uninformed, such a suit may sound reasonable. What 
these suits ignore though, is the fact that firearms are 
overwhelmingly used in the United States to save lives. 
Firearms are used defensively from 2.3 to 3 million times per 
year. In 15.6 percent of these cases, the person using the 
firearm defensively stated that they, ``almost certainly'' 
saved their life by doing so. This translates into hundreds of 
thousands of lives saved per year.
    It also translates into the fact that for every life 
tragically lost by firearm misuse, up to 10 lives may be 
thankfully saved. These suits ignore the fact that the 
distribution of firearms by manufacturers is one of the most 
heavily regulated activities in this country. At Beretta U.S.A, 
we have extensive BATF audits of our records and practices for 
weeks on end every year by BATF audit teams.
    We are allowed by law to only sell to companies or 
individuals who have, themselves, been audited and approved in 
advance by BATF.
    These suits ignore the widespread and long-standing efforts 
voluntarily undertaken by the firearm industry to ensure that 
its products are safely made, and responsibly kept, and 
maintained.
    For decades, industry members have shipped safe use and 
storage instructions with the firearms they sell. We tell 
parents, if you have a child and you have a gun, unload the 
gun, lock it, and store the ammunition in a separate location. 
Holding a manufacturer liable for a parent's decision to ignore 
this basic safety rule would be as fair as holding Seagram's 
responsible for a parent's decision to give a bottle of Vodka 
to his 10-year-old son.
    Gun locks are cheap, effective, and easy to obtain by 
consumers. They have been for decades. Notwithstanding this, 
almost all gun companies provide locks with their products. 
Some, like Beretta U.S.A., provide free locks for any past or 
present customer who wants one. You do not see the automobile 
industry giving free infant car seats to its consumers.
    As a consequence of these industry efforts, accidental 
deaths involving firearms have declined over 40 percent in the 
last 15 years. The number of accidental deaths involving 
firearms is at its lowest level since 1903. This is during a 
period in which the number of guns in circulation have 
increased four-fold.
    The firearm industry has acted for the cause of safety, not 
because it has been forced to, but because it wants to do so. 
The things I have told you about are things that occurred long 
before a single city filed a lawsuit.
    We also do more. We take active steps to keep guns out of 
criminal hands. You may hear about dealers who sell guns 
illegally.
    We believe they should be prosecuted. What you do not hear 
about is that the firearm industry is one of the chief sources 
of information to the law enforcement community about criminal 
attempts to obtain guns. Dealers work with police on a daily 
basis on these issues. Multiple sales are reported immediately 
to BATF.
    Firearm manufacturers help the police by tracing guns found 
at crime scenes. We work directly with police in crime 
investigations.
    Some have suggested that manufacturers should investigate 
dealers themselves, but when a firearm manufacturer gets a 
trace request from BATF, what is the one thing it knows? It 
knows that the police are already on the job.
    Our amateur attempts to investigate a dealer could get an 
undercover officer killed, or even one of our employees killed.
    In all of this discussion, we also need to bear in mind an 
important point. We make firearms to save people's lives. A 
firearm is perhaps unique in that its ability to save a 
person's life depends upon its lethality.
    Without a firearm, a woman may not be able to stop a rapist 
or a murderer. Without a firearm, a shop owner may not be able 
to stop a gang from robbing his store and killing him and his 
family.
    Poll-after-poll indicates that the American public 
overwhelmingly opposes the lawsuits filed against the industry. 
Why is that? Because the public knows that a criminal act is 
the fact of the criminal.
    Negligence in storing a gun is the fault of the owner.
    These lawsuits against the industry will have a cost. 
Litigation costs will drive prices up. This means that Federal, 
State, and local law enforcement departments may not be able to 
upgrade their weapons. The poor in the United States are most 
often the victims of crime. They will be unable to buy firearms 
in the future for self-defense.
    These suits talk about safety, but they ask for money. If 
these suits drive companies out of the industry, who will 
supply sidearms to the Army and the Marine Corps? If the DEA 
could no longer buy new handguns, it may have the Secretary of 
HUD to thank for that problem. Who will supply firearms for the 
personal protection of the American people?
    The American people may still have a second amendment when 
this is all over, but without the means by which that amendment 
is exercised, it becomes an empty promise of self-determination 
and self-defense. Thank you.
    [The prepared statement of Mr. Reh follows:]
    [GRAPHIC] [TIFF OMITTED] T5463.022
    
    [GRAPHIC] [TIFF OMITTED] T5463.023
    
    [GRAPHIC] [TIFF OMITTED] T5463.024
    
    [GRAPHIC] [TIFF OMITTED] T5463.025
    
    [GRAPHIC] [TIFF OMITTED] T5463.026
    
    [GRAPHIC] [TIFF OMITTED] T5463.027
    
    Mr. Mica. Thank you for your testimony.
    What we are going to do is recess now until 5 minutes after 
the vote. Then we will come back and Chief Bunch will be 
introduced by Mr. Cummings. He will be the first up and then 
you will be the last witness.
    So, we will stand in recess until about 5 minutes after the 
vote. Thank you.
    [Recess.]
    Mr. Mica. Mr. Cummings is not back. So, we will go to Mr. 
Jannuzo. If we can recognize him, and then we will get to the 
Chief last. I wanted to give Mr. Cummings an opportunity to 
introduce him. So, let us hear from Mr. Jannuzo who is the 
general counsel of Glock, Inc. You are recognized, sir.
    Mr. Jannuzo. Thank you, Mr. Chairman, and members of the 
subcommittee for this opportunity to testify here today on this 
important issue, not only important to the firearms industry, 
the Constitutional guarantees to the second amendment, the 
firearms-owning public, but also to the future of Americans.
    Glock is the largest supplier of law enforcement firearms 
in the country. We proudly supply service weapons to the 
Federal Bureau of Investigation, the Drug Enforcement Agency, 
U.S. Customs, soon to be the Capitol Police, New York City 
Police Department, Washington Metro, Boston, Philadelphia, 
Baltimore, Savannah, and Miami, just to go up and down the East 
Coast.
    We also supply approximately 57 percent of all State and 
local agencies that have transitioned to semi-automatic pistols 
as their service weapons. Our industry has an enviable record 
in regard to safety. In the last 20 years, accidental firearm 
deaths among children have been reduced by 50 percent. What is 
truly amazing about this, or truly telling about this, is that 
this has been done without government interference or programs 
and solely done by the private sector.
    It is a tribute to the virtues of teaching self-reliance 
and individual responsibility, quintessential American ideals, 
and done by groups like the NRA, the Boy Scouts, and 4-H Clubs. 
However, rather than being lauded for their children's safety 
programs, they have been accused of increasing or promoting gun 
deaths. Eddie Eagle, the theme character in NRA's award- 
winning safety program has been called Joe Camel with feathers.
    This unfair and unjustifiable comparison to tobacco is a 
reoccurring mantra of the anti-gun forces. Apparently, they 
believe the public has been sold on suing tobacco. So, everyone 
else is fair game. I would suggest to the committee that we 
seriously neglect the safety and welfare of our children by 
keeping this sort of valuable safety information out of our 
schools' curricular. It would seem that those who are in charge 
of the schools' curricula have decided that this sort of 
familiarity will not breed the contempt that they desire to 
instill in our children for firearms.
    Apparently, they have decided that a few more children's 
lives are worth the inflammatory press and headlines they can 
garner to push their cause. I am not saying everyone should 
have a firearm. I am not saying there are not certain people 
that certainly should not have firearms.
    This is a decision that we, as citizens in a free country, 
have to make for ourselves. We are certain, however, that if 51 
percent of American households have a firearm in them, then our 
children are more likely than not to be in a household with 
firearms. If we have not taught them what to do at our schools 
and in our homes, then we are putting them at-risk.
    We teach our children to look both ways before they cross 
the streets. We teach them not to drink the chemicals under the 
sink, not to put their fingers in electrical sockets and most 
recently for some reason, how to use condoms, but for some 
reason or another, we have not taught them how to be safe 
around firearms.
    The other element of the proposed or contemplated suit by 
HUD would apparently be the criminal use of firearms. We know 
this because we have the experience of 24 other cities and 
counties to draw upon now. Despite the fact that we have seen 
violent crime dropping all over the country, despite the fact 
that we have the experience of cities such as Boston and 
Richmond to draw from, big city mayors and their tobacco 
lawyers are still intent on absolving criminals of their deeds 
and finding a scapegoat.
    Boston and Richmond have instituted phenomenally successful 
crime prevention programs; crime prevention programs 
specifically addressed to crimes committed with firearms. 
However, even though Boston has reduced its gang-related 
violence with firearms to nearly non-existent levels in the 
fist year and a half of the program, I have read in the Journal 
this morning that they have been reduced by 60 percent over the 
3 years of the program, Boston too has decided to sue our 
industry.
    In light of the fact that accident rates with firearms have 
been reduced dramatically, and despite the fact that practical 
experience with cities such as Boston and Richmond have taught 
us that the most efficient and effective way of reducing 
violence with firearms is the vigorous enforcement of existing 
laws, coupled with the unwavering prosecution of those who 
violate them.
    Cities, counties, and now a department of our Federal 
Government is contemplating suing us. In light of all of the 
empirical evidence against such folly, one has to ask: why? 
Luckily, it is a question that is easily answered. All you have 
to do is review the press statements and clippings that have 
been reported about the mayors who have filed suit. You can 
find the insight that you need into Secretary Cuomo's 
motivation.
    It is simply that they are dissatisfied with the 
legislature and are trying to end-run it. Mayor after mayor 
have said that they have filed these suits because of the 
legislature's failure to act. What they do not say, however, is 
even more interesting. These suits, and the one threatened by 
HUD, are the result of the mayors and other government 
executives' failure to act.
    The majority of the cities that have filed suit against the 
industry have abysmal records on crime. These suits are an 
abdication of their streets to criminals. Now, the abdication 
of the housing authorities' 3,400 properties is being 
contemplated. Since they have not been able to control crime, 
they are allowing society's miscreants to dictate their 
actions.
    Since we do not want to arrest and certainly do not want to 
incarcerate them, we want to instead absolve them of their 
actions and look for a scapegoat. After all, it is probably not 
their fault. We, as a society, have failed them somehow. Once 
you couple this need for a scapegoat with the greed that has 
been promulgated by a feeding at the tobacco trough, it is no 
longer much of a mystery as to why these suits are being filed.
    Mr. Tierney. Mr. Chairman, an inquiry. As riveting as this 
is, I noticed that the light is on.
    Mr. Mica. Yes. If you could begin to conclude. We are 
trying to limit our testimony to 5 minutes.
    Mr. Jannuzo. Simply, Mr. Chairman, I would say that these 
suits, besides being without legal precedent in the United 
States, are going to become the poster child to the law of 
unintended consequences. When firearms cost $300 more, or 
whatever it may be, as the result of this litigation and the 
litigation costs, cities such as New York, who have a 
approximately 36,000 police officers, are going to incur a bill 
at some $11 million more than it would have been had this 
litigation not taken place.
    I, as a taxpayer, object. I am certain other people will 
also. I would urge this committee to act and stop this folly 
before it goes any further.
    [The prepared statement of Mr. Jannuzo follows:]
    [GRAPHIC] [TIFF OMITTED] T5463.028
    
    [GRAPHIC] [TIFF OMITTED] T5463.029
    
    [GRAPHIC] [TIFF OMITTED] T5463.030
    
    [GRAPHIC] [TIFF OMITTED] T5463.031
    
    [GRAPHIC] [TIFF OMITTED] T5463.032
    
    Mr. Mica. Thank you for your testimony.
    I am pleased at this time to yield for the purpose of an 
introduction of our next witness. I recognize the distinguished 
gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    It is my pleasure and my honor to introduce Chief Hezekiah 
Bunch. Chief Bunch retired from the Baltimore City Police Force 
after 22 years of service. He joined the Housing Authority 
Police in 1993. He has been the head of the Authority Police 
for 6 years. I might add that from 1996 to 1998, there were 494 
shootings in Baltimore's public housing projects.
    Let's note that it is the home to 50,000 tenants, our 
housing projects, and over one-half of those folks are 
children. So, it gives me great pleasure to introduce him 
because he sees it from a front line situation. He sees where 
these guns end up. He sees the pain that is brought upon 
communities and families. He goes to the funerals. So, it is a 
pleasure to have him.
    Mr. Mica. Thank you. You are recognized, sir.
    Mr. Bunch. Thank you, Mr. Cummings. Thank you, Mr. Chairman 
and other subcommittee members for inviting me here today. 
During my private and professional life, I have watched a 
drastic change in the vehicle used to commit violent acts in 
our society. This change has taken place from the use of hands, 
to sticks and stones, to knives, and now to the use of 
firearms.
    Gun violence in and around public housing projects in 
Baltimore is a great concern of the citizens of public housing, 
law enforcement, the Housing Authority of Baltimore City, and 
local officials. Between 1996 and 1998, as Mr. Cummings began 
to talk about, the Baltimore City Police Department reported 
the following gun-related violent crimes in and around public 
housing in Baltimore.
    The first one that Mr. Cummings noted was 494 shootings. 
The next area was murders, which was 91 murders that occurred 
in or around public housing. Rapes where firearms were used. It 
was 25. Robberies in and around Baltimore's public housing were 
958 for the same period. Aggravated assaults were 775.
    The two most recent acts of gun violence took place in the 
month of July 1999. The first act took place on July 17, 1999, 
when a man was riding bike through one of our developments and 
was shot during a robbery attempt. On July 26, 1999, a 17-year-
old boy was shot and killed in a parking lot in another one of 
our developments.
    As you can see, gun violence in and around public housing 
in Baltimore is frightening. I have spoken to other chiefs of 
police around the country. I have found that gun violence is 
just as frightening or worse. Even with the success of programs 
such as One Strike, Safe Home, HIDTA, FBI Safe Streets, ATF 
Achilies, Drug Five, DEA Violent Trafficking Task Force, DEA 
Felony Project, Violent Crimes Task Forces (Handgun Enforcement 
Teams), Community Policing and other law enforcement activities 
designed to reduce gun violence, there are still too many 
people in and around public housing being killed, injured, and 
intimidated by firearms.
    My experience as a law enforcement officer has afforded me 
the opportunity to travel and network with other law 
enforcement officials from around the country. As a result, I 
believe that the mere number of firearms that have been 
produced, are currently being produced, and will be produced in 
the future has already or has the potential to saturate each 
and every community in this country.
    With the enormous availability of firearms, the potential 
for more and more citizens in and around public housing to 
become victims of gun violence increases with each firearm that 
is produced. What is HUD's role in litigation against gun 
manufacturers? I see HUD's role in litigation against gun 
manufacturers as being two-fold: that of a landlord and that of 
a government entity.
    HUD's primary responsibility, as the largest landlord in 
this country, is to first protect the lives of its tenants, 
employees, and any person or persons who may be on its 
properties. If HUD does not do the things within its power to 
accomplish this as a landlord, then HUD is not only open to 
litigation itself, but also must continue to absorb the loss of 
man hours due to gun violence against its employees.
    HUD's role as a government entity is one of the protector 
of all of those persons who it gives the opportunity to live in 
its housing. HUD must also be allowed to be a responsible 
entity of government who, when it has identified a threat to 
the lives of those persons it is entrusted to protect, be 
allowed by all means at its disposal to take action that will 
save the lives of the citizens of this country. Thank you.
    [The prepared statement of Mr. Bunch follows:]
    [GRAPHIC] [TIFF OMITTED] T5463.033
    
    [GRAPHIC] [TIFF OMITTED] T5463.034
    
    [GRAPHIC] [TIFF OMITTED] T5463.035
    
    [GRAPHIC] [TIFF OMITTED] T5463.036
    
    Mr. Mica. Thank you for your testimony.
    I feel like I am almost an honorary citizen of Baltimore 
having served with Mr. Cummings. He was our ranking member on 
the former panel and does a great job representing Baltimore 
and certainly telling us about some of the problems and his 
efforts to resolve some of the problems. Welcome, sir.
    I have a couple of quick questions. First of all, I guess 
Mr. Chambers, this action or an action against gun 
manufacturers, whether it is by the government or others, is 
obviously going to curtail manufacturing of weapons or drive up 
the cost as the result in the United States. What would you 
predict would happen? Will we see more foreign imports? Exactly 
what are the consequences, if folks pursue this? Obviously, 
some are pursuing this.
    Mr. Chambers. I think you will see a gross reduction in the 
number of firearm manufacturers. They will be forced into 
bankruptcy. They will be forced out of business. Their demise 
is inevitable. Most of the firearm manufacturers are small. 
Many of them are family owned. They are privately held. They 
cannot survive the massive number of lawsuits that we are 
facing in this country.
    Mr. Mica. What about international production of firearms? 
Would that increase?
    Mr. Chambers. A possibility, sir.
    Mr. Mica. A possibility. Well, I am just concerned that, 
for example, with AK-47s and some of the other firearms we have 
seen, Chinese imports and others, that we ban something on one 
hand and we end up getting it in large quantities from foreign 
source manufacturers. Would you think that this might happen, 
Mr. Reh?
    Mr. Reh. It is certainly possible. What you would be likely 
to see would be companies that have not traditionally sold in 
the U.S. market now trying to enter the market after the long-
established, well-respected, and recognized companies leave. 
So, you might be more likely to see former Eastern Bloc 
manufacturers come in the country or from other markets.
    Mr. Mica. Are not most of the guns, and I do not know the 
statistics, I am not an expert on this, that are used in the 
commission of a crime, illegally obtained in the first place? 
Would anyone know? Mr. Jannuzo.
    Mr. Reh. I can probably give you some information on that.
    Mr. Mica. Mr. Reh.
    Mr. Reh. Sir, most guns that are used in crimes are 
obtained second hand. They are purchased from family members, 
or from acquaintances who can lawfully purchase a gun. When I 
use the word ``acquaintence,'' I am including within that gang 
members, fellow people involved in crime who have not yet been 
convicted and have not yet been barred from purchasing a 
firearm. A fair percentage are stolen either from home theft or 
other people who have guns. Then a certain percentage comes 
from dealers.
    Mr. Mica. Chief Bunch, you have certainly seen a great deal 
of law enforcement experience and also I guess activity in 
public housing. Your testimony started out and you said you saw 
sort of a progression of violence in crime from hand- by-hand, 
and I think you said other weapons, stabbing, et cetera. Now, 
we see this gun problem.
    Is there any relationship between the violence you see and 
another problem that is of particular interest to our 
subcommittee, and that is illegal narcotics? Is there much of a 
correlation between illegal narcotics and the crime that you 
have seen?
    Mr. Bunch. Yes. It is one of the tools that a drug dealer 
uses as a weapon to either intimidate or enforce his territory.
    Mr. Mica. Of the 91 murders in the housing projects in 
Baltimore, what percentage would you say were drug-related?
    Mr. Bunch. I would probably say at least 50 percent or 
more.
    Mr. Mica. Do you feel that the Federal Government is doing 
enough to go at the root problems, drugs and illegal narcotics, 
unemployment, some of the other social things? People just do 
not pick up a gun and shot somebody. A few do who are deranged. 
I would imagine that happens. There have to be some root 
problems. What would you attribute as a responsibility for the 
Federal Government to deal with solving these basic fundamental 
problems?
    Mr. Bunch. I think one of the first things, and I think it 
is being done with this kind of committee to even discuss the 
issue. When I was talking about having seen an increase in 
violence from one vehicle to another, I will go back to my 
childhood. When we had a dispute, we would go to the fists. Now 
when a dispute happens, people go to the gun because it is so 
easy for them to get.
    I have had people, in the last several months, ask me where 
can they get a gun. Naturally, I gave them the correct answer, 
but people who would never have even thought about a gun now 
are looking for them. There is no question in my mind that some 
of those people will go the easiest route to get guns.
    Mr. Mica. Is that for their own protection?
    Mr. Bunch. Well, I think that the fear is out there, that 
everybody has a gun. Everyone needs a gun, but that is the 
problem. When they are so accessible, you can go on probably 
any corner in the city and buy a gun. They are that available.
    Mr. Mica. And that action would be illegal?
    Mr. Bunch. Most definitely.
    Mr. Mica. I will yield to our ranking member, Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman.
    I also want to welcome you, Chief Bunch and other witnesses 
who have testified. The issue actually before this committee is 
the propriety of the Department of Housing and Urban 
Development in engaging itself in this whole question of 
whether the other housing agencies that have embarked on 
litigation against gun manufacturers is something that HUD 
ought to be concerned about, looking at, becoming knowledgeable 
about, and doing research in connection therewith.
    It is troubling to me that we have to bring such a basic 
matter of the jurisdiction of the Department, because as you 
said, Chief Bunch, if they did not care about it, if they did 
not do anything about it as a landlord, they could be held 
responsible. So, in that connection, Chief Bunch, could you 
tell me what kind of a police force you have under your command 
to handle all of the police issues that affect the housing 
authority for Baltimore City?
    Mr. Bunch. Yes. We have a police department that has 
approximately 110 sworn officers, another 125 civilians who 
also are responsible for access to buildings, our building 
monitors. Then we have maybe 10 or 15 support staff. We provide 
an above-base line services to public housing in Baltimore. 
Even at that, we do not provide it to every development. We are 
very limited in the developments that we actually provide the 
service.
    Our strength is in partnerships with other law enforcement 
agencies, both on the Federal, State, and local levels. We try 
to get involved in a number of initiatives that go on in and 
around public housing. That is the way we basically operate.
    Mrs. Mink. So, would you have any familiarity then with the 
budget requirements for your force, as well as all of the other 
security requirements that go along with your responsibility 
for these housing agencies?
    Mr. Bunch. I can only talk about Baltimore.
    Mrs. Mink. We heard earlier that it ranges between 35 and 
40 percent of the total budget.
    Mr. Bunch. Right. It is about the same with us. It may be a 
little less. For instance, my Department only has an annual 
budget of around $12 million. That is for everything, 
materials, equipment, and everything. So, it is probably about 
the same.
    Mrs. Mink. I have no further questions, Mr. Chairman.
    Mr. Mica. Thank you. I would like to yield now to the 
gentleman from Georgia, Mr. Barr.
    Mr. Barr. Thank you. Mr. Chambers, we heard the Chief 
mention, and this is not a new argument, that we have more 
crime involving guns because guns are more available. As a 
matter of fact, is it not true that guns have been very 
available, as a matter of fact, even more readily available to 
law abiding citizens and the general population than years and 
decades past before gun control laws started to be enforced, 
yet, we had less crime?
    Mr. Chambers. Yes, sir. Pre-1968, the per capita gun 
accumulation in the United States was about the same as it is 
today. I can go back to my childhood and I remember, as the 
Chief does, that we settled arguments with fists, not because 
that guns were not available, because they were.
    I grew up around guns. They were in my home. Everyone had 
guns in their home in my hunting community. For some reason, 
that society, that era, that is how we solved our problems. We 
never thought about getting a gun and solving it. Gun access 
was readily available as it is now.
    Mr. Barr. With regard to the impact on the legal firearms 
and ammunition industry in America, if you would please recap 
how many Americans are employed generally in the business? What 
is the payroll?
    Mr. Chambers. If you take in the entire shooting and 
hunting sports activities, you are looking at somewhere around 
a $39 billion a year industry that employs somewhere around 
900,000 people in that pursuit.
    Mr. Barr. Do you have ballpark figures to contrast that 
with the size of the tobacco industry, which is the industry 
that unfortunately has given rise to emboldening lawyers and 
now government agencies to sue private industry?
    Mr. Chambers. No. I would like to go back. When you asked 
the question, are you talking about only the manufacturers of 
firearms? I am talking about the widespread hunting, shooting, 
fishing.
    Mr. Barr. I am just talking about the manufacturing.
    Mr. Chambers. Then we are less than a $2 billion industry 
and employ much less than the tobacco, and no comparison at all 
to them.
    Mr. Barr. So, if there is some notion out there that there 
are these huge deep pockets in the firearms industry, similar 
to the tobacco industry, that would not be accurate; would it?
    Mr. Chambers. That is not an accurate figure. Our entire 
take in the entire firearms industry is less than a Walmart 
concern per year.
    Mr. Barr. Mr. Jannuzo, you are an attorney. Is that 
correct?
    Mr. Jannuzo. Yes.
    Mr. Barr. You have heard some of the legal theories 
discussed here today about the need, or lack of need depending 
on whom you talk to or who is speaking, for an expressed legal 
authority before a government agency can act. I would like your 
views on that. If you would, put it in the context of answering 
the following question.
    If, in fact, HUD is allowed to proceed in some form or 
fashion, and they would not give us a categorical answer, no, 
that they would not, and involve the resources of the Federal 
Government, just one Federal agency we are talking about today, 
in suing the firearms industry, would you see the possibility 
that other Federal agencies could follow that same logic and 
join in lawsuits against the gun industry?
    For example, there are gun crimes committed within the 
jurisdiction of other Federal agencies. So, if we open the door 
to Federal agencies generally being able to involve themselves, 
either directly or assisting lawyers and municipalities in 
suing the gun industry, could this very quickly drown the 
ability of the firearms industry to defend itself against that 
legal onslaught?
    Mr. Jannuzo. Certainly, Congressman. In answer to your 
previous question of Mr. Chambers, tobacco makes in a day and a 
half what we make in a year. If other Federal agencies and HUD 
all decided to file against our industry, it would devastate 
the industry and it would certainly impair cities, States, and 
local municipalities the ability to give their law enforcement 
officers the most important tool that they have when they are 
out in the street.
    Mr. Barr. We have heard a lot of discussion in recent 
years, particularly in recent months about smart guns; a 
technology that can guarantee that a gun will not be misused, I 
suppose. Is that technology fairly expensive to develop?
    If, in fact, these lawsuits are allowed to proceed, is it 
reasonable to conclude that the cost of defending against those 
lawsuits will impair the ability of the firearms industry to 
proceed forward with the research and development of the very 
technology that the gun control activists want to develop?
    Mr. Jannuzo. Most definitely. Mr. Zilkah made that point 
this morning that the U.S. military had spent $30 million last 
year trying to develop an electronic rifle. The Federal 
Government also commissioned a study at Sandia National 
Laboratories, and I think over a period of 3 years, spent some 
$36 million, and still did not come up with a workable product.
    Their final conclusion was that it was at least a 
generation off, both in the confidence level of the user and in 
technology. If these suits are allowed to continue, you can be 
sure that is going to be two generations off.
    Mr. Barr. I guess if it took place at Sandia, I guess the 
Chinese probably know how to crank out the technology now more 
than we do. Thank you very much, Mr. Chairman.
    Mr. Mica. Thank you. Mr. Tierney.
    Mr. Tierney. Thank you. First, Mr. Chairman, I might have a 
problem with the inquiry. Since Mr. Zilkah undertook to leave, 
might we just disregard his testimony and wipe it from the 
record, or is this an opportunity for him to speak and then 
run? I certainly found his testimony shocking and, in many 
ways, inappropriate.
    Mr. Mica. We will be glad to submit to any of the witnesses 
written questions. He was under a time constraint and had 
advised this subcommittee in advance. His testimony can stand 
on the record. If you would like to submit questions to him, we 
will be glad to do it.
    Mr. Tierney. I am not sure it is worth the time and energy, 
but we will see.
    Mr. Reh, you seem to have an extreme distrust for our court 
system. Would that be an accurate reflection of your feeling 
about our judicial system?
    Mr. Reh. I am concerned about any system in which people 
can file lawsuits without having a substantial basis for doing 
so.
    Mr. Tierney. Are you a lawyer, sir?
    Mr. Reh. Yes, I am.
    Mr. Tierney. So, it is your opinion then that every single 
lawsuit that has been filed so far has no basis?
    Mr. Reh. Yes, sir.
    Mr. Tierney. Whenever you make that decision, not regarding 
what a judge may think, in your impression, then your decision 
should carry and they should not be allowed to proceed for 
their rights.
    Mr. Reh. Well, I have to pay for the cost of the defense. 
So, that is a concern to me no matter what the basis of the 
suit is.
    Mr. Tierney. So, does your company hire lawyers?
    Mr. Reh. Yes, we do.
    Mr. Tierney. Those are the good guys and all of the other 
lawyers are the bad guys?
    Mr. Reh. That is how I see them at this point.
    Mr. Tierney. Oh, I am sure that is how you see it, sir.
    Mr. Chambers, you also seem to have a pretty low tolerance 
level for the judicial system these days. Is it your 
understanding that the courts are somehow incapable of deciding 
whether any of these causes of actions have merit or not?
    Mr. Chambers. I think the actions that they are attempting 
to take ought to be taken by Congress and not by the court 
system.
    Mr. Tierney. But you are aware, are you not from your 
earlier history courses, that we have three branches of this 
government; one of which is the judicial system?
    Mr. Chambers. I am very aware of that.
    Mr. Tierney. I was not sure when I heard your testimony. I 
could have counted the number of times that you undertook the 
buzz word ``trial lawyers.'' You have some problem with people 
in the judicial system being represented by counsel?
    Mr. Chambers. Only those greedy lawyers, sir.
    Mr. Tierney. And you know which ones are greedy and which 
ones are not?
    Mr. Chambers. I have a pretty good idea.
    Mr. Tierney. And the ones that work for companies like 
yours certainly are not greedy at all?
    Mr. Chambers. They are not.
    Mr. Tierney. Whatever they get period?
    Mr. Chambers. No, sir.
    Mr. Tierney. Now, you are aware of the fact that it took 
litigation to stop the Pinto from being made with the gas 
engine too close to the rear of the car?
    Mr. Chambers. I am aware of that.
    Mr. Tierney. Those are greedy lawyers that preceded that 
case?
    Mr. Chambers. I do not know what preceded that case. I am 
not that familiar with what motivated them.
    Mr. Tierney. And you are familiar with cases that finally 
stopped some clothing manufacturers from making pajamas that 
were inflammable and were resulting in the injury of little 
children?
    Mr. Chambers. Yes, sir, and those were defective products; 
were they not?
    Mr. Tierney. They may well have been, but are you thinking 
that the lawyers who brought that case under that theory were 
greedy little lawyers?
    Mr. Chambers. Maybe.
    Mr. Tierney. Of course, all of the lawyers involved in the 
tobacco case must be greedy lawyers.
    Mr. Chambers. I did not say that.
    Mr. Tierney. Well, is that your opinion?
    Mr. Chambers. I would say that some of them are motivated 
by greed.
    Mr. Tierney. Would it be your opinion that people ought to 
be deprived of the opportunity to go to court to press a legal 
theory that they believe is just and fair?
    Mr. Chambers. No, I do not.
    Mr. Tierney. So, that you do not have any problem then with 
people undertaking the use of the judicial system to press a 
claim that they believe is merited?
    Mr. Chambers. For a defective product, no sir.
    Mr. Tierney. Any legal claim that they believe has merit; 
do you believe that people have the right to go to court to 
press that claim?
    Mr. Chambers. Certainly, they do.
    Mr. Tierney. Now, are you familiar with any of the cases 
that are now pending by these municipalities having yet been 
thrown out of court on the basis that they did not have merit?
    Mr. Chambers. No.
    Mr. Tierney. Do you trust the judicial system, a judge in 
particular, to be able to make the determination whether or not 
the cases ought to proceed because they have merit or not 
proceed because they do not have merit?
    Mr. Chambers. I think the system ought to work the way it 
is designed to work, yes.
    Mr. Tierney. If it did so, then you would not have any 
problem with it?
    Mr. Chambers. No.
    Mr. Tierney. Now, are you telling us that if the cases are 
allowed to proceed, then you do not think the system is working 
the way it was designed to work?
    Mr. Chambers. If they fail on appeal, or if they are judged 
that way, who knows?
    Mr. Tierney. If these cases were to proceed all the way to 
trial?
    Mr. Chambers. OK.
    Mr. Tierney. And the jury was to come back with a finding, 
after instructions by the judge as to what the law was. The 
finding was in favor of the plaintiffs. Are you then saying 
that you think this whole thing would be----
    Mr. Chambers. Juries are not infallible.
    Mr. Tierney. None of us are.
    Mr. Chambers. Juries make wrong decisions, wrong judgments.
    Mr. Tierney. So, and legislators do, and executive branches 
do, and judicial branches do. The fact of the matter is, this 
is our system. Are you saying that you would deprive people of 
a system of the jury system for an opportunity to go to court?
    Mr. Chambers. I do not know where you got that idea, sir.
    Mr. Tierney. Well, I think maybe from the language during 
your testimony where you seem to be taking on trial lawyers, 
and the court system, and thinking that it was inappropriate 
for people to use the judicial system to press what they think 
is a legitimate claim.
    Mr. Chambers. I have seen their actions with the city 
mayors who are filing lawsuits against my industry; yes, sir.
    Mr. Tierney. If a judge allowed those to proceed because 
the judge believed that the claims had merit, and a jury came 
back and made a finding, that I guess would indicate to us that 
the people were on the right track and not the wrong track; 
right?
    Mr. Chambers. Not necessarily.
    Mr. Tierney. Mr. Jannuzo, beside your also obvious dislike 
for the litigation system, despite the fact you are a lawyer, 
you indicated that you are proud that your company supplied the 
military, the FBI, and other branches.
    Mr. Jannuzo. I did not say the military, sir.
    Mr. Tierney. All right; the FBI. I think Mr. Zilkah wanted 
to tell us that if we did not keep making as many guns 
commercially as we make, then we would not be able to make them 
for the military. It is your case that if we do not make as 
many guns as possible, flood the streets with them, then we 
will not be able to have people making guns for the FBI or 
other security people. Is that what your testimony was?
    Mr. Jannuzo. I do not think you could have been here when I 
testified, sir. I did not say that.
    Mr. Tierney. Well, the impression I got was that one of the 
things that you were inferring was that if the cost of guns 
were to go up so high, it would be prohibitive if you were not 
allowed to keep making guns at the rate you are making them.
    Mr. Jannuzo. I said nothing about the rate, sir. I said 
about the cost of litigation. The rate never entered any 
statement that I made.
    Mr. Tierney. How did you determine the cost of litigation?
    Mr. Jannuzo. I took a number out at random and I said that 
when I said the number, sir.
    Mr. Tierney. And the cost you took out was the increased 
cost of guns for law enforcement officers?
    Mr. Jannuzo. The cost I took out would be added cost as the 
result of litigation, sir.
    Mr. Mica. To be fair.
    Mr. Tierney. You are going to stop me when you did not stop 
the others?
    Mr. Mica. I stopped Mr. Barr approximately one question 
after the red light.
    Mr. Tierney. Fine.
    Mr. Mica. It is up to the ranking member as to how we want 
to proceed.
    Mr. Barr. I am getting a kick out of this, let him proceed. 
It is fine with me.
    Mr. Mica. Whatever you want to do.
    Mrs. Mink. Conclude.
    Mr. Mica. I usually go further.
    Mrs. Mink. Conclude.
    Mr. Mica. OK. Well, the time of the gentleman has expired. 
All time for the hearing has expired. Without objection, we 
will leave the record open for 3 weeks.
    Mrs. Mink. Fine for questions.
    Mr. Mica. If Members on either side have questions of any 
of the witnesses or the agency, we would be glad to submit 
them.
    No further business to come before this subcommittee today, 
I would like to thank each of our witnesses for participating 
and for your contributions.
    This meeting of the subcommittee is adjourned.
    [Whereupon, at 1:25 p.m., the hearing adjourned.]
    [The prepared statement of Hon. Edolphus Towns and 
additional information submitted for the hearing record 
follow:]
[GRAPHIC] [TIFF OMITTED] T5463.037

[GRAPHIC] [TIFF OMITTED] T5463.038

[GRAPHIC] [TIFF OMITTED] T5463.039

[GRAPHIC] [TIFF OMITTED] T5463.040

[GRAPHIC] [TIFF OMITTED] T5463.041

[GRAPHIC] [TIFF OMITTED] T5463.042

[GRAPHIC] [TIFF OMITTED] T5463.043

[GRAPHIC] [TIFF OMITTED] T5463.044

[GRAPHIC] [TIFF OMITTED] T5463.045

[GRAPHIC] [TIFF OMITTED] T5463.046

[GRAPHIC] [TIFF OMITTED] T5463.047

[GRAPHIC] [TIFF OMITTED] T5463.048

[GRAPHIC] [TIFF OMITTED] T5463.049

[GRAPHIC] [TIFF OMITTED] T5463.050

                                   - 

</pre></body></html>
